<html>
<title> - OVERSIGHT HEARING ON CLEANUP EFFORTS AT FEDERAL FACILITIES</title>
<body><pre>[Senate Hearing 110-1266]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1266

                      OVERSIGHT HEARING ON CLEANUP
                     EFFORTS AT FEDERAL FACILITIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate
                              __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-910 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 18, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     6
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........     8
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...   100

                               WITNESSES

Bodine, Susa , Assistant Administrator, Office of Solid Waste And 
  Emergency Response, U.S. Environmental Protection Agency.......     9
    Prepared statement...........................................    12
Arny, Wayne, Deputy Under Secretary of Defense for Installation 
  and Environment, U.S. Department of Defense....................    19
    Prepared statement...........................................    21
    Responses to additional questions from:
        Senator Boxer............................................    31
        Senator Inhofe...........................................    47
        Senator Barrasso.........................................    49
Marcinowski, Frank, Deputy Assistant Secretary for Regulatory 
  Compliance, Office Of Environmental Management, U.S. Department 
  of Energy......................................................    52
    Prepared statement...........................................    54
    Responses to additional questions from Senator Boxer.........    59
    Response to an additional question from Senator Inhofe.......    91
Hirsch, Dan, President, Committee to Bridge the Gap..............   110
    Prepared statement...........................................   113
Wilson, Shari T., Secretary of The Environment, Maryland 
  Department of the Environment..................................   128
    Prepared statement...........................................   131
    Responses to additional questions from:
        Senator Boxer............................................   135
        Senator Inhofe...........................................   136
Buthker, Bonnie, Program Manager, Office of Federal Facilities 
  Oversight, Ohio Environmental Protection Agency................   138
    Prepared statement...........................................   140
Limbrick, Elizabeth, Associate Project Manager, Langan 
  Engineering and Environmental Services.........................   145
    Prepared statement...........................................   147
    Responses to additional questions from:
        Senator Boxer............................................   152
        Senator Inhofe...........................................   153

                          ADDITIONAL MATERIAL

Status of DOD Federal Facility Superfund Sites Without CERCLA 
  FFAs...........................................................   160
ECOS Green Report................................................   161
EPA Nationla Priorities List (NPL)...............................   173
Letters:
    Stephen L. Johnson, United States Protection Agency..........   175
    Maryland Department of the Environment.......................   183
    Senators Menedez, Lautenberg, and Nelson to Gene Dodaro; 
      Acting Comptroller General of the United States............   185
    Department of Toxic Substances Control.......................   187

 
       OVERSIGHT HEARING ON CLEANUP EFFORTS AT FEDERAL FACILITIES

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Craig, Cardin, 
Barrasso.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    We are here today to conduct oversight on the cleanup of 
toxic wastes at Federal facilities.
    Federal facility sites are some of the most heavily 
contaminated sites in our Nation. They can be polluted with 
radioactive waste or dangerous chemicals such as arsenic, lead, 
benzine, which are known to cause cancer or harm the 
reproductive and nervous systems. Some Federal facilities have 
old, unexploded bombs or other ordnance that if not addressed 
could threaten human life with dangerous explosions or by 
slowly releasing toxins into the environment.
    The men and women who are serving their Country and living 
on bases, and in some cases their children, can be at greatest 
risk. These threats are not distant or in the future. They are 
here today and they must be addressed. In my own State of 
California, there are many Federal sites with serious 
contamination problems. I will highlight just two of them.
    The first is the Santa Susanna Federal Lab in Simi Valley, 
in the Los Angeles area. Since the 1950's, Federal agencies, 
including DOE, and private contractors, did testing of 
experimental nuclear reactors and rockets and processing of 
nuclear fuel at the site. A partial reactor meltdown occurred 
there in 1959. The site is contaminated with radioactive and 
other toxic substances that can cause cancer, endanger the 
health of pregnant women and infants. Cleanup activities are 
ongoing, but a full-site investigation has yet to be completed 
for all radioactive and chemical contamination.
    I have worked for a long time with the community to 
intervene when DOE has failed to properly perform the work, 
which has happened over and over again. Today, we will hear 
from one of the amazing leaders in the effort to ensure that 
this site is properly addressed.
    Another California site of concern is Lawrence Livermore 
National Labs, the Department of Energy Superfund site in 
Alameda County. This site has groundwater polluted with various 
contaminants including TCE and perchlorate. While cleanup at 
this site has been conducted for some time, almost 100 wells 
pumped groundwater from the site to remove underground 
contamination, and treatment facilities continue to remove 
contaminants.
    In March of this year, EPA raised serious concerns with DOE 
after a transfer of the site from one arm of DOE to another, 
and proceeded to shut down toxic waste treatment wells because 
the program to which cleanup responsibility was transferred 
claimed it did not have enough money to pay for all the needed 
cleanups. DOE finally reprogrammed money to help get the toxic 
waste cleanup wells at the site back on line, but DOE is 
planning on moving more sites into the same troubled and under-
funded program next fiscal year, and I am very concerned about 
similar problems in the future.
    Several of my colleagues requested this hearing, one of 
them here now, Senator Lautenberg, because unfortunately this 
Administration has allowed Federal facilities to resist 
following cleanup orders. No Federal agency is above the law. 
DOD and DOE facilities must abide by cleanup standards that 
protect communities from toxic threats, and they cannot be 
allowed to escape their responsibilities.
    The DOD should not be able to place itself above the law by 
asking the White House Office of Management and Budget to tell 
EPA to back off. That is unacceptable in any circumstance, but 
especially when the health of our families are at risk. DOD, we 
all support it so strongly because they are our protectors, 
they are our protectors, and we praise them, but if they are 
endangering our people here at home because of toxics on their 
site, and they walk away from their responsibility, this is 
immoral and it cannot be allowed to continue.
    We need to ensure that Federal facilities live up to their 
obligation to clean up toxic sites that they have created in 
our communities. I look forward to hearing from my colleagues 
and I look forward to hearing from all of our witnesses.
    Senator Inhofe.

          OPENINT STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First of all, let me say that I have to leave briefly after 
my opening statement to serve on an energy panel, and then I 
will come right back.
    I believe we need to work together to have effective 
oversight, but I think what we are doing today is putting the 
cart before the horse. The result will be an incomplete and 
inconclusive attempt at oversight. This does not serve the 
American people in an effective and productive manner.
    The process that this Administration has put in place from 
its early days has continuously followed is that if there is an 
interagency dispute, then the two agencies need to work out 
their differences. This oversight hearing is attempting to 
circumvent the process by becoming the jury, judge and 
executioner, rather than letting the agencies go through the 
correct process to negotiate a compromise. I believe when that 
is done, we should hold an oversight hearing. Hearing before 
that resolution doesn't help the situation. It hurts it.
    I know we are coming up against the end of the year and we 
will be leaving here, so I know we are trying to get a lot of 
things done. I believe the EPA has done and will continue to do 
a fine job of cleaning up sites on the national priorities 
list. Of the 1,587 final and deleted sites on the Superfund 
national priority list, 95 percent have undergone construction 
activity, have been completed, or have been deleted from the 
NPL.
    I want to commend the Department of Defense for their 
cleanup efforts to date. DOD has 140 installations on the NPL, 
and 129 have signed Federal facilities agreements, and 11 of 
the installations on the NPL have not reached an agreement with 
EPA and do not have an FFA. Through Fiscal Year 2000, DOD has 
spent over $650 million on cleanup efforts at these 11 
installations, which have an aggregate estimated cost in excess 
of $1.3 billion. As we conduct this hearing today, DOD's 
cleanup efforts at these sites are ongoing.
    I believe that the FFA is an important part of the cleanup 
process. However, I do not believe that it is an accurate tool 
to measure the pace of progress of cleanup at the NPL sites. I 
say this for two reasons. First, not all of NPL sites' cleanup 
needs are captured by the FFA. Cleanup efforts at DOD sites 
without an FFA are ongoing and there are areas that require 
cleanup measures that are outside the FFA. Second, as we have 
done in DOE's situation, an FFA lacks the flexibility to 
address changing circumstances, so the FFA needs to be 
redrafted instead of amended.
    The Department of Energy has done an outstanding job of 
cleaning up 83 of the 108 sites. All of the DOE NPL sites have 
their FFAs. However, most of these have been renegotiated 
recently due to the fact that DOE either did not request enough 
money originally when they signed the FFA, or they had 
unforeseen technical problems at the site. DOE sites are 
focused on the cleanup of radioactive waste and contamination 
generated by nuclear energy research and nuclear weapons 
production. DOE has been and is performing first of its kind 
cleanup tasks in highly hazardous working environments.
    It is important to note that comparing DOE sites to DOD 
sites is like comparing apples to oranges. That is not to say 
that DOE should not be commended for their cleanup efforts and 
progress to date.
    So I believe that there are some positive stories to tell 
in regards to the DOD and DOE. I believe that there is always 
room for improvement, but DOD and DOE have taken on larger and 
more costly sites and have been making positive strides. I do 
believe that should have waited until after these agencies have 
negotiated their differences with each other before getting 
into the oversight hearing, but perhaps there wasn't time to do 
that.
    Thank you, and I look forward to the hearing.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Good morning. Thank you, Chairman Boxer. Today's hearing is 
an oversight hearing on clean-up efforts at Federal facilities. 
I believe we need to work together to have effective oversight. 
What we are doing today is putting the cart in front of the 
horse and the result will be an incomplete and inconclusive 
attempt at oversight. This does not serve the American people 
in an effective and productive manner.
    The process that this administration has put in place from 
its early days and has continuously followed is if there is an 
interagency dispute, then the two agencies need to work out 
their differences. This oversight hearing is attempting to 
circumvent the process by becoming the jury, judge, and 
executioner, rather than letting the agencies go through the 
correct process to negotiate a compromise. I believe when that 
is done then we should hold an oversight hearing. A hearing 
before resolution doesn't help the situation; it hurts it.
    I believe that EPA has done and will continue to do a fine 
job of cleaning up sites on the National Priorities List. Of 
the 1,587 final or deleted sites on the Superfund National 
Priorities List (NPL), 95 percent have undergone construction 
activity, have been completed, or have been deleted from the 
NPL.
    I want to commend the Department of Defense for their 
cleanup efforts to date. DOD has 140 installations on the NPL. 
129 have signed Federal Facilities Agreements (FFA's). 11 of 
the installations on the NPL have not reached an agreement with 
EPA and do not have an FFA. Through fiscal year 2007, DOD has 
spent over $650 million on clean-up efforts at these 11 
installations which have an aggregate estimated cost in excess 
of $1.3 billion. As we conduct this hearing today, DOD's clean-
up efforts at these sites are ongoing.
    I believe that an FFA is an important part of the clean-up 
process. However, I do not believe that it is an accurate tool 
to measure the pace or progress of clean-up at NPL sites. I say 
this for two reasons. First, not all of an NPL site's clean-up 
needs are captured by an FFA. Clean-up efforts at DOD sites 
without an FFA are ongoing and there are areas that require 
clean-up measures that are outside of an FFA. Second, as we 
have seen in DOE's situation, an FFA lacks the flexibility to 
address changing circumstances. So FFA's need to be redrafted 
instead of amended.
    The Department of Energy has done an outstanding job of 
cleaning up 83 of their 108 sites. All of the DOE NPL sites 
have FFA's. However, most of these have been renegotiated 
recently due to the fact that DOE either did not request enough 
money originally when they signed the FFA's, or they had 
unforeseen technical problems at the site. DOE sites are 
focused on the clean-up of radioactive waste and contamination 
generated by nuclear energy research and nuclear weapons 
production. DOE has been and is performing first-of-a-kind 
clean-up tasks in highly hazardous work environments. It is 
important to note that comparing DOE sites to DOD sites is like 
comparing apples to oranges. That's not to say that DOE should 
not be commended for their clean-up efforts and progress to 
date.
    I believe that there are some positive stories to tell in 
regards to DOD and DOE. I believe that there is always room for 
improvement, but DOD and DOE have taken on larger and more 
costly sites and have been making positive strides. I do 
believe that we should have waited until after these agencies 
have negotiated their differences to have an oversight hearing 
on this topic. I also believe that using FFA's to measure 
clean-up progress and pace is inaccurate.
    I look forward to hearing from our witnesses.

    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you for calling this hearing. We 
are looking at a serious problem that exists throughout the 
Country and particularly in our State. We have a site----
    Senator Boxer.
    [Remarks made off microphone.]
    Senator Lautenberg. Unfortunately, yes. Thank you.
    Anyway, Madam Chairman, we thank you very much for calling 
this hearing. There has been considerable neglect on the part 
of the Defense Department in dealing with this issue. Frankly, 
I am disappointed that it was necessary to call this hearing, 
but it is necessary. The EPA issued an order to the Pentagon, 
cleanup the Superfund sites where the Defense Department's work 
put people and the environment in jeopardy.
    Now, I am concerned about the risks that are posed. The EPA 
was forced to take action after the Pentagon refused to take 
this action to reach an agreement between the agencies on a 
cleanup plan.
    Now, one of the Superfund sites, McGuire Air Force Base, is 
in my State of New Jersey. Instead of making an actual 
commitment to clean up the chemicals that are found throughout 
the base, the Defense Department has refused to do what EPA 
ordered. Now, I am concerned about the risks that it could pose 
for employees and military personnel at Fort McGuire and New 
Jersey's nearby communities. In fact, EPA has found several 
pollutants which, I quote, ``present an imminent and 
substantial danger to the public health or welfare at these 
sites.''
    At McGuire Air Force Base, for instance, the ground and 
water have been found to contain pesticides, volatile compounds 
of petroleum and jet fuel. TCE has also been found on the site. 
When TCE seeps into drinking water, it can cause cancer, 
according to the National Academy of Sciences.
    While the Pentagon claims that it will cleanup the site, 
but on its own time line, we know the Pentagon is not doing 
enough. Even the EPA was quick to realize the Pentagon's 
voluntary cleanup was simply a delaying tactic. We know that 
these are not new problems that require more study and more 
discussions. The Pentagon has known about these problems for 
more than 20 years. These sites have been listed as Superfund 
sites for almost 10 years.
    I remind you that out of 1,255 Superfund sites across the 
Country, that 129, 10 percent, are on DOD property. As soon as 
the news broke of the Pentagon's defiance, Senator Menendez, my 
colleagues Senators Mikulski, Cardin and Nelson and I demanded 
answers from the DOD, but we haven't received adequate response 
to our questions.
    We are also working with the GAO to investigate the 
Pentagon's lack of action. But what concerns me more is the 
Pentagon's attitude, that it should be above the laws that 
protect the health and well-being of Americans. Now, think 
about it. Last night, we passed authorization for the Pentagon 
for $612 billion, more than a half-trillion dollars. Not to be 
able to accelerate the pace of cleanup when in fact the 
Pentagon's existence is to protect the health and well being of 
our citizens, and we are willing to do it in places far afield, 
places that put people in harm's way.
    We ought to think about the people who live near these 
bases or the people who occupy these bases as part of their 
responsibilities. We think that their well being ought to be 
considered.
    So we are working with GAO to review the Pentagon's lack of 
action. It is just not right to put the communities that 
surround these military bases at risk by ignoring longstanding 
environmental laws. The Pentagon needs to answer for its 
actions, and when we talk about actions that bring about a 
solution in 25 years, that is not very comforting, I can tell 
you.
    Thank you, Madam Chairman.
    Senator Boxer. Senator Lautenberg, thank you.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    We all support environmental restoration of Federal 
facilities. We support protecting our communities from harmful 
toxic chemicals and other pollutants. Some have been expressing 
concern about the pace of the cleanup at the Department of 
Defense facilities and the lack of a Federal facility 
agreement, an FFA, with the Environmental Protection Agency on 
11 sites. Well, the men and women of the armed forces are the 
people who protect us from harm. They do it protecting us from 
harm overseas and they also protect us from harm here at home. 
They have taken an oath to protect us and the facts bear this 
out.
    The Department of Defense has done a commendable job in 
cleaning up their sites. According to the nonpartisan 
congressional Research Service, 69 percent of all of the 
Department of Defense sites have completed response actions. 
Certainly, more needs to be done, but these reports show that 
the Department of Defense is proceeding at a good pace and 
continues to clean up sites despite Federal facility 
agreements, FFAs, not being put into place.
    The fact is that the FFAs are not good indicators that a 
site is being cleaned up at all. Our goal should be completing 
the cleanups, not completing bureaucratic agreements. The 
Department of Energy has Federal facility agreements, FFAs, in 
place at all of their sites. However, the nonpartisan CRS 
states that the completion of an agreement alone is not 
necessarily an indicator of cleanup progress. Agreements have 
been revised multiple times as assumptions about the 
feasibility of cleanup actions changes over time, resulting in 
repeated extensions of regulatory deadlines.
    So to tell families with children across America that they 
are protected because a Federal agreement is in place is just 
giving them a false sense of security. That puts people's lives 
at risk and that puts people's children's lives at risk. The 
best way we can give our communities the security they deserve 
is to clean up Federal facilities. I felt it was necessary to 
have the bipartisan congressional Research Service look at the 
numbers across the Department of Defense and see what the facts 
are with the progress of cleanups. The nonpartisan CRS study 
states in a recent memo that the absence of a final agreement 
for an entire installation does not preclude individual cleanup 
activities from proceeding at discrete sites within the 
boundary of that installation, and those cleanups have taken 
place.
    Cleanup is proceeding at all the 11 facilities that do not 
yet have an FFA in place. Some have proceeded at a relatively 
advanced stage. Over 51 percent of the sites on these 11 
locations already have cleanup responses in place, despite no 
Federal facility agreement yet in place. Eight of the 11 
locations are over 60 percent completed, factoring in the sites 
where no cleanup response is needed. About 70 percent of the 
current inventory of contaminated sites at Department of 
Defense is complete and the money already spent on this is $28 
billion.
    Finally, there are those who want to draw a comparison 
between the Department of Energy and the Department of Defense 
in their cleanup success rates by stating that the Department 
of Defense has not signed off on all of their Federal facility 
agreements, but the Department of Energy has. Whether intended 
or not, this comparison implies that our men and women in 
uniform are shirking their cleanup duties. Comparing Department 
of Defense's cleanup to the Department of Energy's cleanup is 
comparing apples to oranges. The nonpartisan CRS study states 
that ``the technical challenges in cleanup of their respective 
facilities are quite different, making the efforts of the each 
department not well suited for comparison.''
    Further, the congressional Research Service states that 
comparing the Department of Energy's signing all of their 
Federal facility agreements is not necessarily a measure of 
cleanup progress. For example, CRS states that the Department 
of Defense must cleanup former facilities over which it no 
longer has jurisdiction, requiring coordination with the 
current property owners just to gain access to the land. The 
Department of Energy still has jurisdiction over all of its 
facilities and does not face a similar problem. The Department 
of Defense facilities contain mostly non-radioactive waste. The 
Department of Energy contains wastes that are radiologic in 
nature.
    What families in Wyoming and the rest of the Country need 
to know is that the sites are being cleaned up. They do not 
need political posturing. They don't need interagency 
squabbles. They don't need bureaucratic red tape agreements, 
and they don't need false hope. Let's bring the facts to the 
table.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you. Of course, that is what we want 
to do.
    I wanted to send a message to America's children: 69 
percent is not a good grade. It is a D-minus. So it is all in 
the eye of the beholder.
    Before I call on Senator Craig for his opening statement, 
and then we will get right to the panel, I want to ask 
unanimous consent to enter into the record a report by the 
Environmental Council of the States on DOD's actions to 
restrict State enforcement; two, documents describing instances 
of DOD threatening to retaliate when State's seek to enforce 
public health and environmental safeguards; three, a 
description of threats at Superfund sites where EPA has issued 
DOD cleanup orders; four, a list of DOD Federal facilities 
Superfund sites that do not have Federal facility agreements; 
and five, a National Governors Association policy position on 
Federal facilities.
    Without objection.
    [The referenced documents were not received at time of 
print.]
    Senator Boxer. Senator Craig.


           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Well, thank you very much, Madam Chair. I 
will be brief.
    I do not have prepared opening remarks, but I do want to 
react to my experiences over the last 28 years in dealing with 
one of the Nation's largest Superfund sites, the Coeur d'Alene 
mining district in North Idaho that had a legacy of substantial 
lead and lead materials as a result of old smelting that had 
gone on there for a near-century. Second, we have a national 
DOE laboratory in our State that has buried waste, most of it 
light radioactive transuranic waste, but still critically 
important to Idaho and to DOE because, Madam Chair, it was 
positioned over a very active and major aquifer for Idaho and 
one of Idaho's primary water sources. The method by which it 
was put in the ground based on the technologies we know today 
certainly demanded that it be exhumed and treated 
appropriately.
    Having said that, what I have found in this period of time 
I think are two very important keys that I hope this Congress 
will attempt to implement and become involved in in the future, 
and that is with the States in which these problems exist or 
where they reside. Tragically enough, when you approach a 
cleanup in an adversarial way, when DOE comes in with muscles 
flexing or another agency comes in with muscles flexing, and 
they go after private sector or State interests, it becomes 
very adversarial and very litigious. Years and years and money 
and money is spent in a way that is, in my opinion, 
phenomenally nonproductive.
    Yes, there are winners and losers, and certainly the bad 
guys need to be found. But we also have had a significant 
change in public policy and public attitude over the last 30 
years, and legacy wastes today which were once innocently 
placed, as we know, are now substantial problems. And we have 
to be honest and fair about it, and we ought to be realistic.
    In Idaho to resolve the Superfund site in the Coeur d'Alene 
basin that had gone on and on and on, and had cost hundreds of 
millions of dollars, I and the Idaho delegation insisted that 
we bring this to some degree of finality and understanding. I 
am very fearful, and I saw it happening. In fact, one time 
there was an EPA person on the ground who joked, if I can keep 
this going long enough, I can stay in this beautiful area of 
Idaho and put my kids through college. Now, while that was not 
intended, that was the expression.
    We developed a cooperative relationship between the 
environmental agencies of our State and EPA, and we began a 
process of State and Federal cooperation that brought this to 
conclusion, and is bringing it to conclusion. We feel the 
cleanup has gone on very well. We think it can be completed and 
will be completed. Why should a cleanup take 30 years or 20 
years? Who loses? Attorneys don't lose. Taxpayers lose. Some 
companies may lose. The State may lose, but the citizens of the 
area are oftentimes the dramatic losers.
    The blight, the economic blight that was placed over this 
beautiful region of Idaho is largely being lifted today because 
we brought it to conclusion. We changed an adversarial 
relationship into a cooperative relationship and it worked. 
Down at our laboratory where the wastes were as I have 
expressed them, we brought Idaho into the picture. Idaho and 
DOE became cooperating agencies setting the milestones, making 
those milestones, and completing the process, and it moves 
very, very well today, to the great satisfaction of nearly all 
of the critics.
    Change the adversarial relationship where at all possible 
and create cooperative entities. There are dual roles to be 
played here. When you have the satisfaction of State agencies 
looking over the shoulder of Federal agencies, in my opinion, 
Madam Chair, you oftentimes gain the confidence of the public 
who thinks that in the end, if all are watching everything, 
that the job gets done right.
    But we do have these legacy problems, whether they are DOD, 
whether they are DOE, or whether they are industrial in 
character, and the name of the game for so long has been turn 
it to the attorneys and you will solve the problem. No, you 
waste a hell of a lot of money and the problems simply go on 
year after year after year, and the citizen is the loser.
    Thank you for holding this hearing.
    Senator Boxer. Thank you so much.
    And you know, it is worth noting that there is a lot of 
litigation surrounding that site. Many times, courts rule that 
the U.S. was right and that the private sector, the polluters, 
had to come to the table. It is unfortunate, you are so right, 
that we sometimes have to do that, but eventually I think right 
does prevail. I mean, the easiest thing is for us to all say, 
well, let's just have taxpayers cleanup the mess. But you know 
what?
    Senator Craig. Oh, no.
    Senator Boxer. Most of us believe polluters pay.
    Senator Craig. Well, they should, Madam Chair. That was not 
my point. My point was if we had started in a cooperative 
environment earlier instead of muscling in an adversarial 
relationship, 10 years ago it would have been cleaned up.
    Senator Boxer. Of course. Unfortunately, there are parties, 
sometimes the Government, sometimes the private sector, 
sometimes the States, we don't know, who don't want to 
cooperate for one reason or another and it drags on. And you 
are so right. If we could do one thing in this Committee, it 
would be to say let's have everyone sit down and do the right 
thing. You are so right. Then we wouldn't be here today.
    Unfortunately in my State, I can't tell so many pretty 
stories, so that is the purpose of the hearing, to focus on 
moments when this doesn't happen.
    Senator Craig. Thank you.
    Senator Boxer. So it is my pleasure to introduce our first 
panel. We will start off with Susan Bodine, Assistant 
Administrator, Office of Solid Waste and Emergency Response. We 
will start with you and then we will move to our other 
witnesses.

 STATEMENT OF SUSAN BODINE, ASSISTANT ADMINISTRATOR, OFFICE OF 
    SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Bodine. Thank you, Madam Chair and members of the 
Committee. I am Susan Parker Bodine, Assistant Administrator 
for EPA's Office of Solid Waste and Emergency Response. I would 
like to thank you for inviting me here today to talk about 
EPA's role in the cleanup and restoration of contaminated 
Federal facilities under CERCLA, the Comprehensive 
Environmental Response, Compensation and Liability Act.
    I am going to summarize my testimony, and I ask that my 
entire statement be put in the record.
    Senator Boxer. Without objection, so ordered.
    Ms. Bodine. EPA leads the Federal effort to reduce risks 
posed by contaminated property and takes other activities to 
protect human health and the environment and allow land to be 
returned to beneficial use. That is true at private sites. It 
is also true at Federal facilities. In fact, at Federal 
facilities across the country, EPA's Federal Facilities Program 
has helped other Federal agencies return over 325,000 acres of 
land to beneficial use; we have taken action to help make that 
property available for its anticipated use.
    The statute sets up a unique relationship for Federal 
facilities. This is CERCLA section 120. It provides the 
framework for identifying contaminated sites that might pose 
risk to human health and the environment, and then assuring the 
cleanup and the other actions that need to be taken to protect 
human health and the environment.
    There are some provisions in there that apply to Federal 
facilities only. One of those is the requirement that EPA and 
agencies enter into an interagency agreement, which we commonly 
refer to as an FFA. In fact, I want to point out that Senator 
Craig's remarks were a very compelling argument for why FFAs 
are so important. They in fact bring all the parties to the 
table. Typically, States also sign them. And when you have all 
of the entities at the table, you get cooperation, so you get 
the cleanup in a comprehensive and often expedited way.
    Federal facilities are charged with cleaning up the 
contamination that they cause. Trust Fund money is not 
available for cleanup of Federal facilities. Under the 
Executive Order 12580, Federal agencies are the lead agency for 
carrying out many CERCLA responsibilities at their own 
facilities, but at Federal facilities listed on the NPL, EPA by 
statute is given the final decision authority over cleanup.
    Specifically, section 120(e)(4) says that the Administrator 
and the head of the other Federal agency pick the remedy, but 
in the case of a dispute, the Agency, the EPA Administrator, is 
the final decisionmaker.
    So this sets up a situation where Federal agencies and EPA 
are partners, but ultimately Federal agencies are also 
regulated entities under the statute, under this 120 framework. 
It is a shared responsibility for implementation of the 
program. In many cases, in the majority of cases, that has 
worked very well. In fact, at the field level, the staff 
relationships are strong and the points that have been made 
about progress are right. We have made tremendous progress 
working cooperatively. There are 172 Federal sites that are 
listed on the NPL; 81 percent of these are DOD component sites. 
All but 11 have signed Federal facility agreements in place, 
which of course is required under section 120 of CERCLA.
    As I said, Federal facility agreements provide a framework 
to ensure that there is proper oversight by EPA and in many 
instances the States sign, so you have everybody at the table 
in a cooperative way. But they are enforceable agreements, and 
that is important because we do treat Federal agencies under 
the statute the same as we treat private parties. So you need 
an enforceable mechanism to ensure that the cleanup happens.
    Again, this is what the statute calls for, but it has also 
proven very effective at sites across the Country to ensure 
cleanups take place that protect human health and the 
environment.
    I know statements have been made about progress. I want to 
reiterate that. Again, we have made tremendous progress. Most 
of these sites are under Federal facility agreements. Federal 
agencies are on pace across the board to reach construction 
completion at about 50 percent of the sites. Within these 
frameworks, we can work cooperatively and try and accelerate 
the process. We are also working cooperatively with DOD to 
develop tools to assist field staff in assessment, for example, 
reducing risks related to munitions. We are working with DOD to 
increase State involvement. In fact, we have a cooperative 
agreement with ECOS to re-start the Federal and State dialog 
with DOD on munitions issues.
    Again, I think the track record here is that when there is 
a framework, and what the statute requires is the FFA, an 
enforceable framework, that brings everyone to the table, then 
that is where you get success and that is where you are able to 
ensure that the cleanup is in fact going to be protective over 
the long term.
    I know that I have gone a little bit over time. I 
apologize, Madam Chair. I would be pleased to answer any 
questions.
    [The prepared statement of Ms. Bodine follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much.
    Wayne Arny, Deputy Under Secretary of Defense for 
Installation and Environment, United States Department of 
Defense, welcome, sir.

STATEMENT OF WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE FOR 
    INSTALLATION AND ENVIRONMENT, U.S. DEPARTMENT OF DEFENSE

    Mr. Arny. Thank you, ma'am.
    Madam Chair, Senator Inhofe, distinguished members of the 
Committee, I am honored to appear before you today to address 
your interest and concerns. I also have behind me 
representatives of our environmental restoration and compliance 
team from OSD, and the Navy, the Army, the Air Force, and of 
course the Navy representing the Marine Corps.
    With your permission, I will submit my written remarks for 
the record and make an oral statement.
    Senator Boxer. Without objection.
    Mr. Arny. DOD has been conducting environmental cleanup 
efforts formally for more than 22 years. In that time, we have 
spent $28 billion at approximately 31,000 cleanup sites located 
on more than 1,600 active facilities, 200 BRAC facilities, and 
almost 10,000 formerly used defense sites. We conduct 
environmental cleanup activities at these sites with the 
cooperation and assistance of Federal and State agencies, and 
with the involvement of and input from the public.
    The cleanup process reflects the requirements of CERCLA to 
include CERCLA's implementing regulations, the NCP, and the 
DERP. EPA and State regulators are fully involved in cleanup 
investigations and remedy selection at our facilities at every 
step along the way. Annually, the department spends almost $2 
billion in investigation and cleanup activities. We assess our 
performance by measuring progress in protecting human health 
and the environment, reducing risk to acceptable levels, and 
achieving remedy in place and response complete.
    We accomplish this while balancing our responsibility to be 
good stewards of the taxpayers' dollars. Of DOD's 31,000 
cleanup sites on roughly 4,600 facilities, only 140 facilities 
are currently listed on the NPL. This represents 3 percent of 
our facilities, but they account for almost 50 percent of our 
annual expenditures. We manage our restoration program by 
prioritizing our efforts and resources on the most critical 
sites first, regardless of whether a site is on the NPL or not.
    At the local level, EPA and/or the State regulators are 
involved in our site selections and cleanup investigations, and 
they actively participate in remedy selection. DOD and EPA 
jointly select remedial actions with DOD facilities on the NPL, 
and by law, EPA makes the final selection if there is a 
disagreement between the two of us.
    We also actively seek State acceptance of the proposed 
remedy. The best measure of a successful program is achieving 
remedy in place or completing cleanup, or as we call it, 
response complete. As a result of our efforts, by the end of 
2007, 69 percent of all out sites have achieved their cleanup 
objectives and are at response complete, and another 9 percent 
have remedy in place and approaching response complete for 78 
percent. All of these sites are protective of human health and 
environment.
    The department will continue its longstanding commitment to 
perform environmental restoration at our facilities. We will 
continue our cleanup efforts using the statutory and regulatory 
cleanup framework provided by Congress and pushed forward with 
implementing final remedies in coordination with our regulatory 
partners. Be assured the safety and health of our uniformed men 
and women, their families, and the surrounding community is of 
the utmost importance to DOD. For me, this is also personal. I 
spent 17 years on active duty and 13 years in the Reserves as a 
Navy fighter pilot, and both my sons are Naval aviators in 
fighters who fly from and live on military bases. Because of my 
older son--we won't discuss my younger son--I have three 
beautiful grandchildren who live on-base at Naval Air Station 
Lemoore, California.
    Not only am I and all of the staff in DOD and the services 
concerned about the welfare of all our service members and 
their dependents, but as citizens we are equally concerned 
about the health and welfare of our fellow citizens and the 
environment. We especially understand the risks better than the 
people we serve. We take the responsibility extremely seriously 
to ensure that the department provides a safe and healthy 
environment for all our military families and our surrounding 
neighbors.
    Last, Madam Chair and Senator Inhofe, I encourage you and 
your fellow Senators, or any of your staffs, to please tour any 
of our facilities across the Nation. We would be happy for you 
to meet the dedicated environmental personnel who oversee this 
great enterprise and see personally what they are doing not 
only to clean up all of facilities, but also to ensure that our 
ongoing activities are conducted in an environmentally 
sensitive and responsible manner.
    Thank you again, Madam Chair, members. I am pleased to 
answer your questions.
    [The prepared statement of Mr. Arny follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you, so much. We are so grateful for 
your service and your family's service. I absolutely believe 
that you want to clean it up. Unfortunately, the record is 
replete with information that just doesn't square with what you 
said, so I am going to ask you questions specifically on those 
items.
    Last, but certainly not least: Frank Marcinowski, Deputy 
Assistant Secretary for Regulatory Compliance, Office of 
Environmental Management, U.S. Department of Energy.

STATEMENT OF FRANK MARCINOWSKI, DEPUTY ASSISTANT SECRETARY FOR 
REGULATORY COMPLIANCE, OFFICE OF ENVIRONMENTAL MANAGEMENT, U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Marcinowski. Thank you. Good morning, Madam Chairman 
and members of the Committee. I am Frank Marcinowski, Deputy 
Assistant Secretary of Energy for Regulatory Compliance in the 
Office of Environmental Management. I am pleased to be here 
today to discuss how our program conducts cleanup at Federal 
facilities.
    First of all, I want to thank you for your support for the 
cleanup effort at Santa Susanna Field Laboratory outside L.A. 
You and your staff have been instrumental in bringing together 
the Department of Energy and the EPA to coordinate our work, 
and I can tell you that this work is proceeding expeditiously.
    The year 2009 will mark 20 years since the EM program was 
first established to clean up the legacy nuclear waste left by 
nearly 30 years of nuclear weapons production and energy 
research. Our program has responsibility for cleanup at those 
federally owned facilities and others like Santa Susanna, where 
federally directed research-related activities have taken 
place.
    This is an enormous and complex responsibility. Funded at 
more than $5 billion annually, EM represents the largest 
environmental cleanup program in the world. We manage sites 
that together cover an area the size of Rhode Island and 
Delaware combined.
    Since our work began, we have closed 86 of more than 100 
physical sites nationwide. The national footprint of DOE's 
nuclear complex and its accompanying risks has been drastically 
reduced and eliminated altogether from 31 States. We have 
pioneered new technologies to allow us to retrieve and treat 
millions of gallons of liquid radioactive waste, stored in more 
than 200 underground tanks. We have opened the world's only 
deep geologic repository in Carlsbad, New Mexico, to safely 
dispose of transuranic waste, materials contaminated with 
plutonium and similar elements, and we have consolidated and 
safely stored the Nation's entire excess plutonium inventory.
    The work at many of our sites is governed by Federal 
Facility Agreements, or FFAs. An FFA sets forth schedules and 
processes for site cleanup under CERCLA, including enforcement 
provisions for noncompliance. The enforceable milestones 
contained in these FFAs have played a major role in EM's 
planning, budgeting and the setting of priorities. Of EM's 
currently active 19 cleanup sites, 16 are Federal facilities. 
DOE now has in place FFAs for all nine of our sites that are 
listed by EPA on the national priority list.
    DOE considers stakeholder involvement to be a key component 
of the cleanup decisionmaking process, including the 
development of FFAs. Thus, for example, stakeholder input 
during renegotiation of the Hanford FFA in the late 1990's led 
DOE to change several critical aspects of that agreement. I 
mentioned the importance of milestones in planning and 
executing our work at sites where FFAs are in place. In fact, 
our program is responsible for meeting a total of more than 500 
major enforceable future milestones. Of those, we estimate that 
only about 4 percent are considered to be at risk of being 
missed.
    However, not all milestones are created equal in terms of 
their value to advancing cleanup. There are hundreds of 
additional milestones that are routine, recurring or purely 
administrative, such as reports. At the Hanford site alone, we 
are responsible for more than 200 separate milestones of all 
types each year.
    I mentioned our success with closure sites. One in which we 
take great pride is the Rocky Flats site in Colorado. Rocky 
Flats was once responsible for manufacturing the plutonium 
triggers for the Nation's entire nuclear arsenal. It is 
significant to note that while Rocky Flats was an exceptionally 
complicated cleanup challenge, it was governed by fewer than 20 
milestones. This provided all parties with enough guidance to 
keep the cleanup on track, but also permitted crucial 
flexibility for us to direct resources most efficiently. The 
result was that we were able to close the site in 2005, a full 
10 years earlier than planned. Today, Rocky Flats is a national 
wildlife preserve.
    In planning our cleanup, we seek to focus on the work that 
will produce the greatest environmental benefit at the earliest 
possible time, to the largest number of people. As I have said, 
in determining these priorities DOE works closely with 
regulators and seeks their active cooperation, particularly 
where doing so necessitates modification of cleanup milestones 
embodied in prior agreements.
    Madam Chairman, I am proud of the progress the EM program 
has made in recent years in terms of meeting the Nation's 
cleanup priorities, working closely with stakeholders and 
building the foundation for future cleanup efforts.
    I appreciate your interest in our program and am pleased to 
answer your questions.
    [The prepared statement of Mr. Marcinowski follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much.
    I am going to start off the question period, and I have 
some questions for Mr. Arny.
    Mr. Arny, I am going to ask you about DOD using economic 
coercion in my State. Information provided to the Committee 
shows that in 2004, California's Department of Toxic Substances 
Control issued DOD an enforcement order related to 
contamination at the Naval Information Research Foundation. Did 
DOD tell California to ``revoke, withdraw, declare the order 
void, or offer another procedure that is equivalent to 
revocation, or else it would end DOD's agreement to reimburse 
California for work related to cleaning up the department's 
toxic waste sites in the State''?
    Mr. Arny. I don't have any information on that. I will have 
to get it.
    Senator Boxer. Well, I have the information.
    Mr. Arny. OK.
    Senator Boxer. And I have the information here from Rick 
Moss, Assistant Deputy Director of California's Department of 
Toxics. He says the State was forced to revoke its enforcement 
order at the site. His is outrageous and you don't know 
anything about it.
    Mr. Arny. Ma'am, I have no idea.
    Senator Boxer. You don't know anything about it. OK.
    Mr. Arny. I will say, because I worked for the Navy for 6 
years doing BRAC and installations, and we had a very, very 
good relationship with DTSR, and also with our DSMOA. As a 
matter of fact, we have gone beyond our DSMOA.
    Senator Boxer. Well, I am not asking you for 
generalizations. I am asking you, I have the document.
    Mr. Arny. I will get you the answer.
    Senator Boxer. From my State, and it is very, very clear 
that they said they were threatened that you would pull out of 
the site. So why don't we just put this aside, and you will 
look into it and get back to me within a week.
    Mr. Arny. Absolutely, yes.
    Senator Boxer. And we have heard this from others.
    Now, Mr. Arny, do you believe that a Federal agency should 
immediately investigate and cleanup contamination from a 
Federal facility if combustible gas is detected just 100 feet 
away from a school, toxic gas threatens to seep into school 
rooms, and chemicals pollute a potential future drinking water 
source. Do you believe that a Federal agency should immediately 
investigate and cleanup such contamination that threatens 
children in a school?
    Mr. Arny. Yes, ma'am.
    Senator Boxer. Then DOD should comply with EPA's cleanup 
order at Fort Meade in Maryland and stop asking the White House 
to intervene in enforcement of the order. Now, why has DOD 
asked the White House to intervene in enforcement of this 
order?
    Mr. Arny. There is a difference between the substance and 
the form of what is happening here. The site at Fort Meade was 
a site near the school and near housing. We went in when it was 
identified. It was identified during the construction of the 
housing. We went in an did immediate removals, put barriers 
around, and put up sensors and have done all the things that 
are required to. When EPA issued their order under RCRA, as 
opposed to CERCLA, there was no--when you issue that order, you 
are supposed to identify some immediate and substantial 
endangerment. There was no immediate and substantial 
endangerment other than what we had seen years before, and we 
have been complying with that.
    Senator Boxer. OK.
    Mr. Arny. I will explain why we have gone to OMB. When I 
took this job 6 months ago, and I did Navy and some similar 
stuff, the department in 2003 made a decision on FFAs to go 
down a dual track. The Air Force was looking to do 
streamlined----
    Senator Boxer. Sir, excuse me. I don't have much time, and 
the reason I am stopping you here is you are giving me a very 
bureaucratic answer. I am going to leave this Fort Meade for 
the Senator from Maryland. I am going to leave that. He will 
stew on what you said.
    Mr. Arny. OK.
    Senator Boxer. I am going to go to my next question.
    Mr. Arny, do you believe that a Federal agency should 
immediately investigate and cleanup contamination from a 
Federal facility if high levels of DDT, a chemical that causes 
cancer and harm to the developmental and reproductive system, 
are found in areas that people use for fishing and recreation?
    Mr. Arny. Yes, I do.
    Senator Boxer. Then DOD should comply with EPA's cleanup 
order at Tyndall Air Force Base in Florida and stop asking the 
White House to intervene. DOD isn't above the law. The 
department is legally required to protect public health, not 
delay or try to block safeguarding public health. So, I don't 
understand. I mean, your answer is right. We should clean this 
up immediately when there are high levels of DDT. But then we 
find out at Tyndall Air Force Base in Florida, you are asking 
the White House to intervene again and not clean it up.
    Mr. Arny. Not on the cleanup levels, ma'am. Absolutely not 
on the cleanup levels.
    Senator Boxer. Why are you asking them to intervene?
    Mr. Arny. The procedures are in place. The citizens are 
protected from that. That is ongoing. We have gone to OMB 
because there was a dispute between DOD and EPA on procedures 
within the FFA. I worked at OMB in the 1980's for two and a 
half years. If there is a dispute between two--and I got this 
dispute. It was laid in my lap. And I said, this is ridiculous. 
We can't negotiate it. One department is not negotiating. They 
are not talking to each other. OMB is the avenue and DOJ to 
resolve disputes between agencies. And that is all it is. It is 
procedural. It is not substantive.
    Senator Boxer. Procedural, but meanwhile people are exposed 
to DDT.
    Mr. Arny. No, they are not, ma'am. No, they are not.
    Senator Boxer. Let me just say something here. EPA is in 
charge of this, not OMB.
    Mr. Arny. We agree.
    Senator Boxer. It is EPA's job. They issue the order. You 
are not following it.
    Mr. Arny. The order is under RCRA.
    Senator Boxer. DOD and OMB and EPA.
    Mr. Arny. Yes, ma'am. I understand that.
    Senator Boxer. So then why are you interfering and not 
doing it and going to the White House?
    Mr. Arny. We are responding. At Tyndall, they asked us to 
test water. We went out and tested it. We found nothing. They 
agree with that.
    Senator Boxer. Well, the fact of the matter is, I can go on 
with example after example, where the DOD is trying to run away 
from its responsibility.
    Mr. Arny. Absolutely not.
    Senator Boxer. Well, I will give you another one. I will 
give you another one.
    Mr. Arny. OK.
    Senator Boxer. And then I have to stop because my time is 
running out.
    Mr. Arny, information given to EPA states that Alaska's 
Department of Environmental Protection has withheld enforcement 
actions against DOD out of fear that DOD would withhold funding 
for State cleanup oversight work at DOD facilities. This 
information describes DOD contractors failing to report toxic 
chemical releases, failing to correctly characterize waste, 
improper waste disposal, and failing to properly address 
leaking storage tanks.
    This is another example. Are you familiar with the Alaska 
situation?
    Mr. Arny. I find that incredible. I have no idea of what it 
is about. I will check into it.
    Senator Boxer. OK. We will give you all the information 
from Alaska, from Florida, from Maryland, from California, 
because is it one thing to sit here and say--and I believe 
you--you want to do everything right, but then you have these 
circumstances where EPA has been very clear and you are trying 
to run and get the OMB to----
    Mr. Arny. No, ma'am. That is a mischaracterization.
    Senator Boxer. Well, we will continue with this.
    Go ahead, Senator Inhofe.
    Senator Inhofe. All right. Let's start with Ms. Bodine. I 
would like to have you kind of explain why the EPA has filed a 
lawsuit against Tronox to recoup $280 million for the site in 
New Jersey, and what impact has an ongoing Department of 
Justice corruption probe had on the $280 million figure? I 
guess what I am really asking here is, isn't this premature to 
go ahead and do that before some of these determinations are 
made?
    Ms. Bodine. Senator, it is my understanding that EPA's suit 
for cost recovery against Tronox is entirely separate from 
whatever investigation that DOJ may have with respect to 
contractors or bids on the Federal Creosote site, that they are 
completely separate.
    Of course, at Federal Creosote, the site is complete. It is 
now protective of human health and the environment. It is in a 
residential area. It has been cleaned up to residential 
standards.
    Senator Inhofe. It was cleaned up by the EPA.
    Ms. Bodine. EPA spent the money, but again as we all agree, 
responsible parties should pay for cleanup and there are 
responsible parties at the site, and EPA is now seeking cost 
recovery from those parties.
    Senator Inhofe. What we are getting at now, I think, Ms. 
Bodine, is a rerun of some of the things we have been dealing 
with now for at least the years that I have been serving on 
this Committee, and that is that I have seen estimates that 
that cleanup could have been done for about 10 percent of what 
the cost is. Do you disagree with those estimates?
    Ms. Bodine. I haven't seen those estimates, but you raised 
this issue a matter of months ago.
    Senator Inhofe. Yes.
    Ms. Bodine. After you raised it, I went back and I asked my 
staff about it because I was concerned about the issues you 
were raising. It is my understanding that because of the 
location of this site, because it is in a highly populated 
area, because it is a residential property use, that the 
alternatives that were being presented by the prps, who by the 
way didn't step up to actually do the work, but those 
alternatives were not feasible at this site because you can't 
leave the waste in place when it is a residential property.
    So yes, this site involved removing material, taking it 
offsite and treating it. It did not involve leaving it in 
place, but that is because it's a highly populated residential 
area. In a different location, a different remedy might have 
been possible, but not at this location.
    Senator Inhofe. Yes. And I understand that. I anticipated 
that would be your answer, but you will remember, when you had 
a different position, and I remember sitting up here when we 
went through the same thing at a site down in Louisiana. In 
that case, we were able to let the responsible party go ahead 
and do it, and they cleaned it up, and the estimate of the EPA 
was again much, much greater than that.
    My concern is this, you have a company that is now I think 
in serious trouble. I have read some things. I haven't talked 
to any of the principals of the company, but there has been 
some talk about going into chapter 11 and all that, just 
because of this. If it could have been done--and I have seen 
very responsible parties analyzing what could have been done 
and how they could have cleaned up the mess that they were 
responsible for--for something like $30 million. Then you come 
along and it just seems like there is no lid on this thing. I 
know you will say it is a unique situation, but it keeps coming 
up again and again.
    This is what does concern me. I know that this is ongoing. 
I know that there are serious problems in a corporation as a 
result of this. I think it is just another example of not 
handling it properly and allowing people in the private sector 
to take care of these things, as opposed to the Federal 
Government coming in through the EPA and just spending money 
that doesn't really have to be spent. I suspect that is the 
case, but I don't know that is the case. But I am concerned 
over what the result is in some of these companies.
    Secretary Arny, in my opening statement I talked a little 
bit about, let me go back and re-read it here. DOD has 140 
installations on NPL, and 129 have signed Federal facilities 
agreements, 11 of the installations on the NPL have not reached 
an agreement with EPA and do not have an FFA. Through Fiscal 
Year 2007, DOD has spent over $650 million in cleanup at the 11 
installations, which have aggregate total cost in excess of 
$1.3 billion.
    It sounds to me like when we look at what you have been 
doing, it has been a pretty good job in terms of the efforts 
that have been made by DOD.
    Mr. Arny. We work very cooperatively, we believe, with the 
States and with EPA. Indeed, at Fort Meade, EPA is on our site. 
They have an office there. We have set the levels. We have 
worked with them. As I said, the sites that don't have FFAs, we 
are working to----
    Senator Inhofe. Are those the 11 sites?
    Mr. Arny. Those are the 11 sites. Ironically, one of the 
sites is closed out at Hanscom. We have reached closure on all 
of the sites----
    Senator Inhofe. But you are continuing this process in 
spite of the fact that FFAs were not in place?
    Mr. Arny. Absolutely. And as I said before, when I took 
this job, we had a problem in that policy personnel and legal 
personnel on DOD staff felt that what was being required in the 
FFAs exceeded the law and regulation. I felt they had good 
reason. I can't tell which side is right or wrong in it. There 
have been no negotiations of any meaningful stature with EPA 
for over a year. I said let's break the logjam. As a former 
OMBer, OMB, one of their charges is to resolve interagency 
disputes. So I said, let's take this up to get it resolved. 
Whatever OMB and DOJ tell us to do, we will comply with 
exactly.
    Senator Inhofe. Yes, I remember you used the term ``when I 
took this job.'' I remember when you took this job, and we had 
this discussion as to the difficulties it was. And quite 
frankly, I think it has to be said by someone on this Committee 
that I think you are doing a good job.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    I want to ask a question of Mr. Arny. We know that other 
Federal agencies have signed cleanup agreements without 
protest, but the Air Force in particular has not signed cleanup 
agreements for its Superfund sites, and I include reference to 
McGuire Air Force Base particularly. Why is that?
    Mr. Arny. There are a number of reasons. The Air Force, 
like I said, I spent the last previous 6 years working Navy 
issues and worked with my Air Force counterparts.
    Senator Lautenberg. Right, but your responsibility includes 
Air Force.
    Mr. Arny. Right. It does not. I mentioned that just to say 
that I did see from the side, more or less. They were trying to 
reach a more streamlined process, rightfully or wrongfully, and 
there were some personality issues which we could go into. And 
so when this----
    Senator Lautenberg. As brief as you can be, please.
    Mr. Arny. The department chose to go down two paths. When 
it came to me, those two paths weren't working. We needed to 
combine in a single----
    Senator Lautenberg. That we know. OK, so please, why is 
that happening? Just laziness on the part----
    Mr. Arny. Oh, no. Again, cleanup was being done heavily at 
all the facilities, and as you know, at McGuire, we all 
decided, EPA and Navy, that the BOMARC site was far more 
critical, even though it wasn't part of the NPL designation, so 
that is where the Air Force has been putting their work at 
McGuire on the BOMARC site.
    Senator Lautenberg. So they don't multi-task when it comes 
to these things?
    Mr. Arny. No, they have protection in place at all the 
sites at McGuire. It is just that the actual cleanup efforts 
have been expended at BOMARC more than the others.
    Senator Lautenberg. McGuire has been on the top priority 
Superfund cleanup list since 1999. The Pentagon has reported 
that it won't be cleaned up until 2032. Why must it take over 
30 years to clean up a site that has been listed for a long 
time as a potential threat to the adjacent communities?
    Mr. Arny. Sir, the groundwater there is not used. If there 
is any imminent danger, we go in and stop that instantly. This 
is a groundwater plume that is not used by us or the outside. 
Now, a lot of those long dates that you see, the 2030's, 
2040's, most of those are long after we have a remedy in place. 
Those involve long-term monitoring for many years.
    Senator Lautenberg. But are they safe at that point?
    Mr. Arny. They are safe before that. The population----
    Senator Lautenberg. So your challenge is to whether or not 
it is a threat to the population?
    Mr. Arny. Absolutely. We isolate it and then go in and 
clean it up. I am very frustrated at the fact that it takes 
sometimes many years to get these investigations done to decide 
what to do.
    Senator Lautenberg. Yes. The McGuire Air Force Base, 
located above the Atlantic coastal plain aquifer, and 
discrepancies in the levels of fuel stored in above-ground 
storage tanks there. The groundwater flow may be in the 
direction of a child care center. I mean, these things exist 
there, but it has not been characterized to determine whether 
children and day care workers are potentially exposed to 
contaminated groundwater or vapor intrusion.
    Mr. Arny. Sir, I don't know the specifics of that site, but 
I would be dumbfounded if we haven't gone in to protect----
    Senator Lautenberg. Well, I would like an answer.
    Mr. Arny. Absolutely. And I encourage you to visit, because 
it is also----
    Senator Lautenberg. I visit often, but I would ask you 
please to get me an answer to that question.
    Mr. Arny. Yes, sir.
    Senator Lautenberg. When we think about a 30-year 
timetable, it is impossible to contemplate. Once again, we are 
spending $3 billion a week-plus appropriations on the war in 
Iraq, and we have to be able to protect our citizens who are on 
the ground in this Country, as well as our efforts to protect 
ourselves in places far away.
    Mr. Arny. I agree with you completely, and if we had any 
imminent danger, we would instantly go in.
    Senator Lautenberg. All right. I will look for your answer, 
Mr. Arny.
    Administrator Bodine, in 2001 the Defense Department 
challenged and brought to a halt EPA's plans for stronger 
drinking water standards for trichloroethylene. In 2006, the 
National Research Council found the strongest evidence to date 
that TCE is linked to cancer. Now, given that evidence, does 
the Pentagon still claim that TCE doesn't really present an 
imminent threat?
    Ms. Bodine. Was that directed to me?
    Senator Lautenberg. To you or Mr. Arny.
    Mr. Arny. Yes, sir. TCE is one of our chemicals of great 
concern. We do believe that poses a hazard. As somebody who is 
old enough to have been using it when I was younger, we agree. 
I mean, it wasn't back in the old days. We used it in great 
quantities as de-greasers, and we are now paying the penalty 
going in and cleaning that up.
    Senator Lautenberg. So then the Defense Department is no 
longer challenging safeguards, and worked to rid ourselves of 
the exposure to TCE.
    Mr. Arny. Absolutely not. We are not challenging. It is a 
danger and we need to take care of it.
    Senator Lautenberg. All right.
    Madam Chairman, I have----
    Senator Boxer.
    [Remarks made off microphone.]
    Senator Lautenberg. OK. But the record, I assume, will be 
kept open.
    Senator Boxer. It will be kept open.
    Senator Lautenberg. Because there are questions that have 
to be answered that were not asked today. Thank you.
    Senator Boxer. Absolutely.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Arny, I mentioned in my opening statement about this 
congressional Research Service report that has come up to take 
a look at the efforts that have been done by the Department of 
Defense. Look at this statement from the report. It says the 
Department of Defense has completed planned response actions 
with the concurrence of Federal and State regulators at 69 
percent of the contaminated sites it has identified as being 
eligible for cleanup. That was given a low grade by Madam 
Chairman.
    But to re-grade the paper, if you look on this next chart, 
and the next line in the CRS report says further assessments 
indicated that no response action were expected or required at 
12 percent of the sites because the potential risks of exposure 
were within an acceptable range based on applicable standards 
and other relevant criteria. So now you are up to an 81 percent 
in terms of what needs to be done.
    It goes on to say response actions were pending at the 
remaining 19 percent of the site inventory, but there were 
varying stages of progress among those sites already completed, 
ranging from the assessment phase to the construction of 
cleanup remedies.
    So as we kind of re-grade this paper, getting now from 69 
percent to 81 percent, and now we are looking at these last 19 
percent, I assume that you are along the line of progress at 
those. Those aren't 19 percent where nothing has been done. 
From the report, it says you have been making progress.
    Would you like to speak to that to see what we really ought 
to get this grade up to?
    Mr. Arny. As someone who has come to this late in his life, 
I think what you have to look at is where we know of something, 
we go in instantly. Let me give you a case at Fort Meade where 
we were constructing a building and dug in and found drums of 
hazardous material. So that was something that was not on 
anybody's radar scope. So when we go in and we find it, we do 
immediate action. We work with EPA, what needs to be done to 
protect human life and the environment.
    But with all of our sites that we do know, we characterize 
them as what is the most critical, what is moving, what is not 
moving, what can we protect through other means to keep people 
off of it--doing things like that. Then we go through this long 
and sometimes painful work with EPA and our contractors to 
analyze what is there and decide what has to happen.
    But again, we go back to characterizing it. Just because 
something doesn't have a remedy in place doesn't mean we 
haven't looked at it and made sure that the public and the 
environment is protected from that. If it starts to spread, if 
something changes, then we go in and move it up on our priority 
list.
    Senator Barrasso. So looking at this, then, in addition to 
that, you are now at 69 percent plus 12 percent plus another 9 
percent, and a number of these places you already have work 
being done on as well.
    Mr. Arny. All of our places we have work being done or we 
have it on our list, and 100 percent of it we believe that the 
public and the environment is protected for now. We may have to 
go in and do something later, but for the meantime we are 
putting our money, again in cooperation with EPA and the State, 
we all decide what is the most hazardous, what do we need to 
address first, and we work out our priority.
    Senator Barrasso. So in terms of re-grading the paper, we 
are now at 90 percent in terms of work being done.
    Mr. Arny. Well, 100 percent in terms of what we have looked 
at. Now, you put a shovel in the ground and you dig something 
up, then, bam, that number may change.
    Senator Barrasso. Great. In spite of FFAs not being in 
place, because my next statement is going to be: However, the 
absence of a final agreement for an entire installation does 
not preclude individual cleanup actions from proceeding at 
discrete sites within the boundary of that installation. So 
there are reasons that you wouldn't want to sign a Federal 
facility agreement.
    Mr. Arny. We would like to sign it, but there were what w 
believe substantive disagreements on policy between ourselves 
and EPA that we could not, apparently, get resolved, so we 
pushed those up. But in terms of the substance of the 
agreement--and I point to Hanscom up in Massachusetts, and I 
forget why, but there was no FFA signed and yet we have 
completed that site, in cooperation with EPA.
    Senator Barrasso. So the bottom line is you have two sons 
who are serving our Nation who are living on bases, three 
grandchildren living on bases, it would seem to me that you 
would be the perfect man to be in charge of this.
    Thank you. My time has expired.
    Thank you, Madam Chairman.
    Senator Boxer. I love having the student grade himself. I 
wish I had a teacher like that in school. Teacher, I deserve an 
A-plus.
    [Laughter.]
    Senator Boxer. We will go on.
    Senator Barrasso. Yes, you do, Madam Chairman.
    Senator Boxer. Thank you. That was very sweet of you to 
say.
    [Laughter.]
    Senator Boxer. And I would suggest, I hope you can stay 
because we are going to go into how the States grade the DOD, 
and I think that is key. Let's just put it this way, in some 
cases, some very red States giving very failing grades.
    But let's get to our friend, Senator Cardin, because he 
really has a lot of questions.
    Go ahead, Senator.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair.
    Before I begin, I would ask unanimous consent that my 
opening statement, Senator Mikulski's opening statement, 
Senator Nelson's statement, and the documents relating to clean 
up of Fort Meade and Fort Detrick that I have here be included 
in the record. I ask unanimous consent that the record fact 
sheets from the Department of Health and Human Services Agency 
for Toxic Substances and Disease Registry detailing the health 
risks of some of the contaminants of these Superfund sites all 
be included in our record.
    Senator Boxer. Without objection.
    [The referenced documents follow:]

           Statement of Hon Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Thank you, Madame Chair, for holding this hearing.
    Today, less than 30 miles north of here, soils and 
groundwater are contaminated with

     metals,
     chlorinated solvents, including TCE and PCE,
     volatile organic compounds,
     explosive compounds and
     other pollutants

    all at levels above safe drinking water standards. Several 
of these contaminants are known or are suspected of causing 
cancer.
    This pollution is from historic activities at the Fort 
George G. Meade Army Base. And it is not new. The pollution 
dates back in some cases to decades ago.
    The Army, the Environmental Protection Agency, and the 
State of Maryland have been working to clean up the site since 
1993. Because of the severity of the contamination, EPA listed 
Fort Meade on the National Priority List of Superfund sites in 
1998. Much clean-up work has occurred on the site, especially 
in the early years. But the pace of the cleanup has slowed. In 
recent years it has been especially difficult to get the Army 
to commit to additional actions.
    A Federal Facilities Agreement between EPA and DoD 
governing the cleanup of the site is required by Superfund law. 
In fact, it must, according to law, be signed within 180 days 
of the site being listed on the National Priorities List.
    It is more than 9 years since Fort Meade was put on the 
Superfund list and there is still no Federal Facilities 
Agreement in place.
    The law is quite clear on this issue. In fact, in their 
written testimony, witnesses from EPA, the Department of 
Defense, and the Department of Energy all plainly say that 
under Section 120 of the Superfund statute, Federal facilities 
are required to comply with the law in the same manner, both 
substantively and procedurally, as private entities.
    The same holds true for the other major law governing 
waste, the Resource Conservation and Recovery Act, or RCRA.
    Madame Chairman, today soil and groundwater pollution 
remain at the site. Pollution is migrating offsite, too, 
through groundwater.
    Residential drinking water wells in Odenton, Maryland, show 
detectable levels of several of these pollutants.
    The Department of Defense has delayed taking the actions 
necessary to protect the health and welfare of my constituents. 
They include the brave men and women who serve our nation on 
the Fort Meade base and the Fort's neighbors outside the gate.
    This situation is not confined to one military 
installation. This same refusal to comply with the Superfund 
statute has also occurred at McGuire Air Force Base in New 
Jersey and Tyndall Air Force Base in Florida.
    EPA decided it could wait no longer and issued a Unilateral 
Administrative Order 1 year ago to the officials at Fort Meade, 
McGuire and Tyndall.
    The order requires the Army to conduct additional 
investigation and to take interim measures to protect human 
health.
    Astonishingly, at Fort Meade the Department of Defense 
remains unwilling to either comply with the cleanup 
requirements in the Unilateral Order or to commit to a specific 
timeline for entering into a Federal Facility Agreement with 
EPA.
    On May 15th of this year, the Department of Defense went so 
far as to ask the Department of Justice to find them a legal 
loophole so they would not have to comply with EPA's order.
    Madame Chairman, the time for further delays is long over. 
Today, I want to hear from the Department of Defense that they 
will abide by the law.
    For the sake of those who work at Fort Meade, and McGuire 
Air Force Base and Tyndall Air Force Base and all their 
neighbors, we have one clear message for Secretary Arny: Clean 
it up and do it now.
    I look forward to the testimony of all our witnesses today 
and the opportunity to find out why the early years of progress 
at these Federal facilities has been replaced by a record of 
obstruction and non-compliance.
    Thank you, Madam Chairman.

           Statement of Hon. Barbara Mikulski, U.S. Senator 
                       from the State of Maryland

    Chairwoman Boxer I would like to express my gratitude for 
calling this important hearing today. In late June, the 
Washington Post ran an article describing the Department of 
Defense's (DOD) neglect in cleaning up military bases around 
the country. The DOD has been negotiating unsuccessfully with 
the Environmental Protection Agency (EPA) on how this cleanup 
should progress. In 1988, EPA placed one of the bases mentioned 
in this article, Fort Meade, on its annual Superfund list. Fort 
Meade happens to be in my home State of Maryland and it is home 
to thousands of military officers and families.
    I am disappointed with DOD's lack of response on this issue 
and would like DOD to take extra effort steps to cooperate with 
the EPA. The EPA issued an order to DOD last August setting a 
more aggressive timetable for the cleanup process and 
establishing fines for missed deadlines. This order asked Army 
to clean up 17 hazardous-waste sites at Fort Meade and the 
nearby Patuxent Research Refuge. DOD refused to sign EPA's 
order and has argued there is `no imminent and substantial 
danger to health and human safety'.
    Well we know that there are all sorts of dangers when 
chemicals are involved. And sometimes you can't see them. 
Spills and wastes from Army sites have leaked into groundwater 
into the past, contaminating water supplies for local 
communities. This issue affects not only Fort Meade, McGuire 
Air Force Base and Tyndall Air Force Base--but the thousands of 
people living, working, praying and playing on base and in 
nearby communities. We need to cut through the red tape and 
make sure that this cleanup is conducted in the sunshine. DOD 
should remove the chokepoints holding up this important 
process.
    DOD is not above the law and should follow the same 
requirements as anyone else. EPA has the regulatory authority 
to oversee the cleanup of toxic spills and waste. If private 
companies and individuals must comply with EPA's rules, then 
DOD should be no exception. If DOD is self-regulating its own 
pollution and cleanup efforts then this is a slap in the face 
to the law and the clear intent of Congress.
    I am grateful that Secretary Wilson from the Maryland 
Department of the Environment is also hear to discuss the work 
that Maryland has done on prioritizing and overseeing cleanup 
efforts at Fort Meade. It is important for DOD to work with EPA 
and start acting on this order immediately. Our military 
families make all sorts of sacrifices in the name of this 
country and we must make their health and safety a higher 
priority. I know that my colleagues care deeply about this 
issue. I look forward to working on this important issue with 
the Chairwoman, Senator Cardin, and my other colleagues. Thank 
you.

    Senator Cardin. Thank you, Madam Chair.
    Mr. Arny, you have been spared some opening statements that 
were not, quite frankly, complimentary of DOD.
    Let me first start with Fort Detrick. Fort Detrick site B 
is well known. There is a process to start listing Fort Detrick 
on the national priority list under Superfund. I have a very 
simple question for you, and that is, will you commit to this 
committee today that the Department of Defense will comply with 
the 180-day time limit in the law for entering into a Federal 
facilities agreement as it relates to Fort Detrick?
    Mr. Arny. I am not sure I understand, sir.
    Senator Cardin. As I understand it, Fort Detrick site B is 
currently in the process of being listed on the national 
priority list under Superfund. That triggers the process for a 
Federal facilities agreement to be entered into between the 
Department of Defense and the Environmental Protection Agency. 
My question is pretty simple. Will you agree here today that 
you will enter into on behalf of the Department of Defense with 
the Environmental Protection Agency within that 180-day limit a 
Federal facilities agreement?
    Mr. Arny. We will comply with the law, sir. We are glad to 
enter into an interagency agreement and we will comply with 
that.
    Senator Cardin. Then why have you not complied with the law 
as it relates to Fort Meade? Fort Meade was listed on the 
national priority list in 1998, and we still do not have a 
Federal facilities agreement between EPA and DOD.
    Mr. Arny. Sir, we are complying with the substance of 
CERCLA and the law of CERCLA.
    Senator Cardin. Have you entered into an agreement?
    Mr. Arny. No, we have not, sir.
    Senator Cardin. Does the law require 180 days?
    Mr. Arny. The law requires we enter into an interagency 
agreement and a ROD. It doesn't require it from the time we 
start an investigation. It requires us to do an interagency 
agreement. It requires three things, and also a record of 
decision can be the equivalent of an interagency agreement. Our 
dispute is, we have no dispute over the substance of either 
Fort Detrick or Fort Meade of the cleanup, and we have worked 
very closely with EPA on both cleanup methods and cleanup 
schedules. Where we have a dispute is over what----
    Senator Cardin. Let me get Ms. Bodine in here for a second. 
Do you agree that there is a requirement in the 180 days to 
enter into an agreement?
    Ms. Bodine. The statute in section 120(e)(2) provides that 
the Administrator shall review the results of each 
investigation and study conducted, and then 180 days thereafter 
the head of the department, agency or instrumentality concerned 
shall enter into an interagency agreement with the 
Administrator for the expeditious completion of the remedial 
action.
    Senator Cardin. Do we have an agreement entered into with 
DOD in regards to Fort Meade?
    Mr. Arny. No, we do not.
    Senator Cardin. And has it been more than 180 days? Has it 
been more than 9 years?
    Mr. Arny. Not since the investigations were complete.
    Senator Cardin. Well, let me tell you what we understand, 
that the DOD is in an argument as to whether the land that was 
operated by the Department of Defense that is now part of the 
Patuxent Wildlife, that the DOD does not want to accept its 
responsibility in that regard, despite the findings.
    Mr. Arny. That is not true, sir.
    Senator Cardin. Then why haven't you entered into an 
agreement?
    Mr. Arny. That is different from that question on whether 
we----
    Senator Cardin. Why have you not entered into an agreement 
for 9 years, when the law says it should be within 180 days? 
And let me tell you something, you make broad statements about 
the safety of a community. In Maryland, we have a community 
known as Odenton. They are very concerned because there has 
been results shown that the pollutants from Fort Meade are 
coming down there. They are not only affecting the health of 
the people in Fort Meade, the military, but the surrounding 
communities.
    Mr. Arny. Again I say, sir, we take that responsibility 
very sincerely and very seriously, and we believe that Odenton 
is protected. If we find that it is not, again working with EPA 
and the State, we will take other actions to stop that flow.
    Senator Cardin. Madam Chairman, let me just point out, in 
response to Senator Lautenberg, you were talking about the 
monitoring that you are doing. At Fort Detrick, you didn't do 
that.
    Senator Boxer. I am going to give you an additional 5 
minutes because you didn't have an opening statement. So 
continue.
    Senator Cardin. I appreciate that.
    You didn't do that. You only responded as a result of the 
efforts of other agencies. DOD was slow coming to the table in 
monitoring the risks at Fort Detrick. Do you dispute that?
    Mr. Arny. I don't know that. Let me check. Sir, I will have 
to get back to you on the specifics, but I know at Fort 
Detrick, where we did find that it was moving into the water 
system, we supplied drinking water and connected----
    Senator Cardin. Let me get the full record by Mrs. Bodine 
here, if I could, in regards to Fort Detrick and the DOD's 
monitoring.
    Ms. Bodine. First of all, we have proposed Fort Detrick to 
the NPL. It was in the September listing package. It is Fort 
Detrick area B groundwater. The concern was to make sure that 
cleanup of the groundwater was under EPA's oversight. 
Specifically, the contamination of TCE and PCE had been found 
in drinking water. The Army did provide alternative water 
supplies. The concern that EPA had, shared by the State of 
Maryland, was appropriate characterization of the groundwater. 
Again, as part of EPA's oversight responsibilities, we make 
sure that there is a full investigation and characterization of 
the site so that when we say we are done, we truly are done in 
protecting human health and the environment.
    So you don't look at just TCE if you have a facility that 
was a former biological weapons facility, and you have disposal 
in unlined pits.
    Senator Cardin. My point is that clearly DOD is making 
statements here that they do these monitoring things in order 
to protect the community, and they have not done that at Fort 
Detrick. It was as a result of the efforts of EPA and our State 
officials to try to get some remedial action.
    Mr. Arny, let me just ask you one more question about Fort 
Meade for a moment. Can you explain why on the RCRA order, the 
Army has missed six deadlines in regards to that order issued 
by the EPA regional director? I am going to quote from a letter 
dated May 22, where the regional director, Donald Welsh, says 
EPA's views are unattainable under the Army's attempt to 
establish the conditions under which the regulator can 
regulate. The Army seeks to dictate not only the circumstances 
under which it will comply with validly issued RCRA orders, but 
also the circumstances under which it will enter into CERCLA 
section 120 Federal facility agreements.
    My question to you is, I will go through the six States if 
you want me to, where the DOD did not respond to the RCRA order 
on the deadlines that were imposed.
    Mr. Arny. So the RCRA order, when you issue that order, as 
I have learned, the EPA is required to list an imminent 
substantial danger and a remedy to put in place. Those orders 
were procedural orders. They did not do that. In one case at 
Tyndall, where they asked us to test----
    Senator Cardin. I am talking about Fort Meade.
    Mr. Arny. I am talking about all of them. At Fort Meade, 
we----
    Senator Cardin. There are six States that you did not 
comply with--six specific starts of the order.
    Mr. Arny. No, we have complied with that substantively 
under CERCLA, absolutely.
    Senator Cardin. You have missed the deadlines under RCRA. 
Let me just read one more sentence from the Administrator's 
findings: As a result of the Army's noncompliance with the 
order, violations of the order may be enforced by citizens or 
States under RCRA section 7002.
    Do you disagree with that?
    Mr. Arny. That is part of the dispute, sir. That is why we 
have gone to DOJ and to OMB to resolve this.
    Senator Cardin. So I understand----
    Mr. Arny. We believe that substantively we have complied, 
working with EPA and the State, substantively complied to the 
issues that we have been under CERCLA there for years.
    Senator Cardin. So you believe DOD has the authority to 
pick and choose which cleanup actions it takes at a site?
    Mr. Arny. We are taking--there were no----
    Senator Cardin. Who makes the decision? If EPA says you 
have to do it, you say you don't have to do it.
    Mr. Arny. EPA makes the decision. There were no extra 
cleanup actions requested in that order.
    Senator Cardin. Well, the record will speak for itself.
    Mr. Arny. Yes, sir. I agree.
    Senator Cardin. The record will speak for itself. You know, 
we have an Environmental Protection Agency for a specific 
purpose. The Department of Defense has expertise. The 
Environmental Protection Agency has expertise. And the 
Superfund law is pretty clear as to who has the responsibility 
here to make determinations and DOD must comply. And when you 
wait 9 years to enter into a facility agreement, and you 
haven't still done it, and you start picking and choosing what 
you are going to do, it doesn't give me comfort that the men 
and women who are serving in our military and the surrounding 
community are safe.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    What we are going to do is finish up, and I will hold to a 
4-minute timeframe for the second round.
    Mr. Marcinowski, I have worked to make certain that the 
Santa Susanna field lab site in California is appropriately 
cleaned up. I have often been frustrated by DOE actions that go 
against this goal. Do I have DOE's commitment today that it 
will strictly comply with California law and the Federal laws, 
including Superfund, in all of its cleanup actions at the site?
    Mr. Marcinowski. Yes, you do, Madam Chair.
    Senator Boxer. That is a good answer, and I will hold you 
to it.
    Mr. Marcinowski. OK.
    Senator Boxer. Do I also have DOE's commitment that EPA can 
conduct in conjunction with DOE a comprehensive investigation 
of radioactive and chemical contamination at the site?
    Mr. Marcinowski. Well, right now we have entered into an 
agreement with EPA that EPA would conduct the radiological 
assessment on area four of the site, which is not the entire 
site.
    Senator Boxer. Well, I am asking you a comprehensive 
investigation of radioactive and chemical contamination at the 
site. Do I have your commitment that EPA can conduct that 
investigation?
    Mr. Marcinowski. The difficulty we have is that outside of 
area four, we don't have responsibility for any of that site.
    Senator Boxer. Well, obviously only in the area you are 
responsible for.
    Mr. Marcinowski. In the area we are responsible for, 
absolutely.
    Senator Boxer. Fine.
    And then, Ms. Bodine, I assume that you would take charge 
of the rest of the site and conduct those investigations?
    Ms. Bodine. The State has the lead currently on the rest of 
the site.
    Senator Boxer. Do you work with them on it at all?
    Ms. Bodine. We do work with them.
    Senator Boxer. Yes, and you will work cooperatively with 
them on it?
    Ms. Bodine. We will continue our practice of working 
cooperatively with the State at this site.
    Senator Boxer. OK.
    Mr. Marcinowski, in 2008 did DOE temporarily shut down 13 
wells--and we are talking about Lawrence Livermore now--used to 
clean up contaminated groundwater at the Lawrence Livermore 
Superfund site in California and reduced staff because DOE 
moved management of the site to an under-funded program. Did 
you temporarily shut down 13 wells and reduce staff because you 
moved management of the site to an under-funded program?
    Mr. Marcinowski. The site was transferred to the NNSA, and 
my understanding is that it was not funded this past year. I 
would have to take that for the record and get back to the NNSA 
and get an appropriate answer.
    Senator Boxer. Well, can I count on getting an answer, 
because I want to have your commitment that this gets done as 
well. We will work with you on that.
    Mr. Marcinowski. We will work with the other part of the 
agency to get you an answer.
    Senator Boxer. OK.
    I am going to talk to the DOD right now, just from the 
heart, no questions.
    You know, your opening statement couldn't have been more 
beautiful. But unfortunately, what is happening on the ground, 
and I thought Senator Cardin's questioning proved it, does 
match your rhetoric. DOD is not above the law, and I don't know 
if you are aware, so I am going to give you so you can study, 
the States have gotten together and, through a nonpartisan 
organization, they are complaining. I don't care what grade you 
give yourself or what grade Senator Barrasso gives you, that is 
great. The two of you have a nice relationship.
    To me, I care about what the States are saying. I care 
about what Alabama is saying about DOD. I care about what 
Alaska is saying about DOD. California--I care a lot about 
that, 37 million people and they are my people. We are talking 
about Colorado, Ohio, South Carolina, Maine, Massachusetts, 
Montana, Michigan and Nebraska--all cited, and basically all 
saying that DOD has put themselves above the law.
    And when Senator Cardin questioned you on this point--180 
days--you just danced around it and conferred with your staff. 
There is a pattern here, and that pattern is documented in that 
study that I put into the record.
    What I would like to do is make sure, Mr. Arny, that you 
read that report from these States and you get back to me.
    Mr. Arny. Absolutely, because we are not above the law.
    Senator Boxer. Good. I don't think anyone is, not even the 
President, not a Senator----
    Mr. Arny. Absolutely. I agree with you entirely.
    Senator Boxer. Good. So I am really----
    Mr. Arny. We do have some disputes with the States over the 
DSMOA, which we are working out, if that is the issue.
    Senator Boxer. Well, it is one of the issues, but we want 
to see. Because here is the point, we know what the law says 
and we know that EPA is in charge. Look, I don't want----
    Mr. Arny. We agree with you.
    Senator Boxer. Let me finish. I don't want EPA making 
decisions on war strategy. Trust me, that would not be Ms. 
Bodine's expertise. I don't want you making decisions on 
environmental cleanup because you have an interest in an easier 
way out. Let's face it, you are a responsible party. That is 
life. That is truth. That is fact.
    Mr. Arny. And Senator Boxer, we agree with you. When it 
comes----
    Senator Boxer. You may agree with me----
    Mr. Arny. When it comes to remedy selection, EPA trumps us 
completely.
    Senator Boxer. Yes, well, it is not just about selection. 
It is follow-through. It is running around to the White House. 
It is threatening States.
    Mr. Arny. We don't threaten States. If we do, I will stop 
it.
    Senator Boxer. I have proof from my----
    Mr. Arny. If we threaten States, I will stop that.
    Senator Boxer. Fine, because you talked to my State and I 
have it in writing that they were threatened specifically if 
they didn't back off, you would pull money out. Unacceptable. 
And you can, you know, give yourself any grade you want, but 
the fact is it is unacceptable. Abuse of power is unacceptable.
    Mr. Arny. I agree with you entirely.
    Senator Boxer. Taking on powers of other agencies is 
unacceptable. But most of all what is unacceptable is delaying 
cleanup that affects children, pregnant women, the most 
vulnerable in our society.
    Mr. Arny. We are not delaying cleanup.
    Senator Boxer. Well, I could say I think you are.
    Mr. Arny. OK.
    Senator Boxer. And it has been proven by the States who are 
very articulate in this document that you will see. I hope you 
think in the next 10 days you can get back to me on each of 
those States' complaints. Would you do that?
    Mr. Arny. We would be happy to.
    Senator Boxer. Would you do that in writing?
    Mr. Arny. Yes, ma'am.
    Senator Boxer. Good.
    OK, we will move to Senator Barrasso and see if he has any 
questions, and then we will move to Senator Cardin.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Getting back a little bit, we were talking about Federal 
facility agreements, Mr. Arny. I imagine there are some pretty 
good reasons why these are not a good measure of environmental 
cleanup at Department of Defense sites. Could you share some of 
those with us?
    Mr. Arny. We believe that they contribute to it, but also 
we want to get a schedule, a document that is meaningful. 
Again, I am not the absolute judge, but our policy staff and 
our legal staff felt that what was being requested in the FFAs 
were improper legally and procedurally. They have been trying 
to negotiate that for a couple of years. We had a model 
agreement signed in I believe 1999 between EPA and DOD, and we 
have been willing to go back and sign any FFA that was in that 
format. But we were told no, that that format was null and void 
and we were not able to negotiate.
    So consequently because of the experiences I had had, this 
wasn't going to get resolved without an adjudication process, 
and that process, we are not going to OMB trying to seek to go 
around the law. We comply with the law. That is our 
requirement. But where there are lawyers on each side that 
disagree, as in many cases, you need to have somebody resolve 
that, where you have policy issues to decide.
    So we went to OMB and said, look, you guys and DOJ, you 
figure out who is right. You tell us, because again, the 
argument that was brought to me looked right, but I am not the 
final arbiter. So you tell us what it is; we will go in; we 
will comply with whatever you tell us to do.
    But as far as the substantive cleanup, in terms of 
determining the remedies that go in place, we have never 
debated that issue. This has nothing to do with the substance 
of the cleanup. This has to do with the form of an FFA.
    Senator Barrasso. Mr. Marcinowski, if I could, you 
mentioned in your testimony that the Department of Energy often 
has to renegotiate the FFAs, this is following what we just 
heard on how FFAs work.
    Mr. Marcinowski. Yes.
    Senator Barrasso. But you are renegotiating an FFA, and I 
think you said some of the reasons are that milestones and 
obligations couldn't be met, whether because of overly 
optimistic planning assumptions; whether because of contractor 
performance or even technological barriers. So do you think 
that the Federal facility agreements really are a full measure 
of someone's success as an agency to be able to clean up sites 
and protect the public?
    Mr. Marcinowski. Well, they are, in my opinion, living 
documents in that we do need to renegotiate them because some 
of these have been put in place a decade go, when we didn't 
fully understand the highly complex technical work that the 
department is doing. So as we become more knowledgeable about 
those issues, sometimes that will bring changes about in the 
deadlines for when things have to be completed. The utility of 
these is that most of our agreements are tri-party agreements, 
that is, it is us, EPA, and the State regulators who negotiate 
these agreements. Among those three parties, there is an 
agreement about what the cleanup milestones are and a schedule 
for meeting those. Those agreements then go out for public 
comment.
    So what you are doing is you are socializing an agreement 
about what needs to be done on a particular site in order to 
facilitate cleanup.
    Senator Barrasso. OK. But you described it as a living 
document, subject to change.
    Mr. Marcinowski. Right.
    Senator Barrasso. And Mr. Arny, a final question, in my 
earlier statement, I said there really are differences in terms 
of comparing Department of Defense from Department of Energy in 
terms of a cleanup process. Do you agree with that?
    Mr. Arny. Yes. They have far different problems than we do.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    Senator Cardin.
    Senator Cardin. Administrator Bodine, what prompted EPA's 
decision to use the Resource Conservation Recovery Act, RCRA, 
authority to issue cleanup at Fort Meade, Maryland?
    Ms. Bodine. As I mentioned in my opening statement, it is 
important, and I think it is acknowledged by everyone today, it 
is important to have a framework in place for EPA oversight of 
these cleanups at Federal facilities listed on the NPL. It is 
required by law, but it also is important for the confidence 
that Senator Craig was talking about, how bringing everyone to 
the table in agreement adds to the confidence.
    But it is also critically important substantively. There 
are disagreements over cleanups.
    Senator Cardin. But in order to issue the order, there has 
to be an imminent and substantial endangerment to public 
health. What conditions existed at Fort Meade?
    Ms. Bodine. The statutory standard may present an imminent 
and substantial endangerment to public health or the 
environment.
    Senator Cardin. And what were those conditions at Fort 
Meade?
    Ms. Bodine. At Fort Meade, it was the conditions that you 
described as well as those recorded in the order itself. The 
presence of the solvents, the presence of the PCBs, the 
presence of the VOCs, the vapor intrusion pathways that are 
there all meet the standard of may present imminent and 
substantial endangerment. You can cutoff a pathway in the short 
term, for example, at the Manor View parcel at Fort Meade. They 
relocated people. The school is still there. There is a system 
in place to blow out the vapor, but that is not a permanent 
solution. And so, vapor is an imminent and substantial 
endangerment and may present--it doesn't have to be today, but 
the conditions are all there for that imminent substantial 
endangerment. That vapor intrusion is there.
    Senator Cardin. Can you tell us in your view why the 
Department of Defense may not have wanted to enter into a 
facilities agreement? And why the law you pointed out in my 
first round of questions, the 180 days, this is now 9 years? I 
want to know from your position why this has not happened.
    Ms. Bodine. I would have to defer to the Assistant 
Secretary. I would point out that----
    Senator Cardin. I think your hesitation is a good enough 
answer for me. There is no reason why, other than trying to 
drag their feet on a specific cleanup plan. They have used 
band-aids, as you have pointed out, to perhaps deal with an 
immediate risk that is on the surface, but have not taken the 
actions necessary to provide the permanent cleanup that is 
envisioned under the Superfund law, that is envisioned under 
the RCRA statute, to protect the public. I think that is the 
concern.
    You spelled out very clearly the imminent risks, and they 
are very much contaminants that affect the public health, 
whether it is drinking water or the environment. They are 
present and at risk at Fort Meade, and they have been there for 
a substantial period of time. EPA took the right action to get 
the remedial plans in place, and the Department of Defense has 
done everything it can to deny its responsibility. If it was 
operating in good faith, it would have signed an agreement 
years ago and started a course to permanently fix it. But 
instead, they don what some businesses do at times, put off 
maintenance, put off repair, because they would rather spend 
the money elsewhere.
    Thank you, Madam Chair.
    Senator Boxer. We thank our panel. We have a lot of work to 
do in the next 10 days getting back your answers.
    I would ask the second panel to come up quickly because I 
am due at another hearing 10 minutes ago, so Shari Wilson, 
Bonnie Buthker, Elizabeth Limbrick and Dan Hirsch.
    What we are going to do is, I am going to have Dan Hirsch 
go first because he is talking about a very important 
California site. I am going to ask him a couple of questions, 
and then I am going to hand the gavel over to Senator Cardin 
and he is going to hold the rest of the hearing.
    Thank you very much, panel one.
    So I am very proud that Dan Hirsch is here. He is the 
President of Committee to Bridge the Gap, and he has been on 
this Santa Susana site for as long as he and I know each other, 
and I don't even want to tell you how long that is because it 
would--but it is interesting because Dan turned gray and I 
turned blond.
    [Laughter.]
    Senator Boxer. But I think it is just a miracle, isn't it? 
But in any event, Dan, we welcome you. So I am going to use the 
personal privilege of the Chair to ask you to go first. I will 
ask you a couple of questions for the record, and then we will 
turn over the gavel to Senator Cardin.
    Please go ahead, Dan.

              STATEMENT OF DAN HIRSCH, PRESIDENT, 
                  COMMITTEE TO BRIDGE THE GAP

    Mr. Hirsch. Thank you, Madam Chair and members of the 
Committee. I am very glad to be here, and particularly glad to 
be here because of you.
    We have heard a lot today about how great the agencies are. 
I am going to talk to you from the ground, from what people are 
really experiencing in these----
    Senator Boxer. Is your mic on, just to make sure?
    Mr. Hirsch. Maybe I should speak closer. Does that work?
    Senator Boxer. Is it turned on? The red light?
    Mr. Hirsch. Oh, sorry. OK. I thought red means not.
    So I am very, very grateful to be here, because you have 
protected our community, whereas these agencies have been 
working at cross-purposes to the interests of this community. 
What we are talking about are cancers. We are talking about 
genetic effects, birth defects-these are very, very toxic 
materials, and they didn't just get there by accident. It is 
not like all of a sudden these agencies are trying to clean 
something up that just got there by an act of God. It is 
because of misconduct by these very agencies that the 
contamination was produced in the first place.
    So I have a written statement. With your permission, I 
would just like to summarize it and then include it in the 
record.
    Senator Boxer. Without objection.
    Mr. Hirsch. The Santa Susana Field Laboratory is a facility 
established in the late 1940's, supposedly to get as far from 
populated areas as possible for this dangerous work. In the 
years since then, we have now had Los Angeles mushroom all 
around it, so we have more than a half-million people living 
within 10 miles of the site. Over the years, the facility had 
10 nuclear reactors, a plutonium fuel fabrication facility, a 
hot lab to cut up irradiated nuclear fuel, as well as 20,000 
rocket tests, plus Star Wars laser work and munitions 
development. All of that resulted in an incredible legacy of 
contamination because of constant violation of the basic 
environmental rules by these agencies.
    Back in 1957, AEC promoted the fact that one of these 
reactors was the first reactor to light a town, the town of 
Moorpark, then about 3,000 people. They had Edward R. Murrow 
come out and do an hour special on television. Less than 2 
years later, that reactor suffered a partial meltdown-one of 
the worst nuclear accidents in history. The AEC never got 
around to telling Murrow or anybody else about this accident. 
They covered it up. That accident involved one-third of the 
fuel experiencing melting, and they intentionally vented the 
radioactive gases for weeks into the atmosphere.
    This was an accident that occurred because they had huge 
amounts of radioactivity and other signs that something was 
going wrong and they kept operating the reactor anyway. When 
they eventually decided to shut it down, they found one-third 
of the core had experienced melting.
    They had three other reactors that experienced similar 
kinds of accidents. They ended up taking the radioactive waste 
and dumping it in the ocean off of Los Angeles. One-third of 
the barrels imploded before even hitting the bottom, the 
radioactivity getting out. They decided that was too much 
trouble, so they began to simply burn the contaminated waste 
onsite, taking barrels and barrels and barrels every month and 
igniting them by shooting at them with rifles. Sometimes they 
would explode and go high in the air and land on and crush a 
pickup truck. Huge plumes of contamination were released into 
the Los Angeles air basin by this.
    On the rocket tests, they washed off the rocket test stands 
with TCE, and 500,000 gallons of TCE have made their way into 
the groundwater and the soil at the site. We measure 
permissible concentrations in five parts per billion. They have 
a pump-and-treat program that has been getting 10 gallons out a 
year. At that rate, it will be 50,000 years before they are 
able to clean up the TCE, except they have stopped the pumping 
for the last decade.
    This is a site that because of all those activities ended 
up very, very contaminated. Dozens and dozens of violations of 
the pollution discharge requirements resulted in polluted 
surface water leaving the site into the neighboring communities 
in violation of the Clean Water Act as cited by our Water 
Board.
    This is a facility that ended up having a sodium burn pit 
where they took sodium-contaminated reactor components, put 
them in open pits, and let them bubble and bubble right over 
the town of Simi Valley. And then they pumped the contaminated 
water down onto a children's camp, which ended up contaminated.
    So that is a history of how we got there. You would think 
that that was a long time ago and the agencies are behaving 
differently now. But they are not, they are behaving in exactly 
the same way. Twenty years ago they announced they were going 
to clean up the site, and 20 years later the chemical cleanup 
has not even begun. They have done a few interim measures, but 
the final remedy is still years and years and years away.
    On the radioactive cleanup, the Department of Energy 
decided that they were going to leave 99 percent of the 
radioactively contaminated soil in place, and just walk away, 
without even an environmental impact statement. Senator, you 
urged them to do a full EIS, and they refused to do it. We, the 
city of Los Angeles, and NRDC had to go to Federal court and 
the judge has now ordered them to comply with the law to do an 
EIS.
    But we are still with the situation where that 
radioactively contaminated material is onsite, and no promise 
in fact to remove it or clean it up. You will recall that we 
found that they were taking radioactively contaminated building 
debris and taking it to three municipal landfills in Los 
Angeles to dump it in places where radioactive material is not 
licensed or permitted to go. They actually took contaminated 
trailers and sold them to a school. You had intervened to get 
those back and end up disposed of in a hazardous landfill. They 
took contaminated metals from the reactors and sold them as 
scrap, so the radioactive metals got melted down into the 
consumer metal supply.
    So that is our problem. It has not been getting cleaned up. 
And now we have a problem where the Department of Energy has 
said, and EPA have also indicated to the State that they are 
making strong signals that they will not comply with the State 
law. I was very glad that you were able to get a commitment 
from DOE that they will. I would like to see it. If not, we 
need congressional action to make sure they do, because they 
have indicated they intend to ignore that State law.
    EPA has now said they don't want to do a full cleanup, that 
they want to simply look at surface soil, and not sub-surface 
soil, not the groundwater, not areas outside of Area Four. The 
radioactive material went far beyond Area Four. It is DOE's 
responsibility and one needs to look at the whole thing.
    Let me end by saying that this is a microcosm of the 
problems throughout the whole DOE complex. We have created 
hundreds of billions of dollars of contamination through sloppy 
practices, reprocessing waste at Hanford in Washington State 
and Savannah River, meltdowns in Idaho, accident after accident 
throughout the complex. The agencies have by and large walked 
away. They have tried to accelerate cleanup by simply refusing 
to do the cleanup they are supposed to do.
    At the same time, we are now faced with a situation where 
there is a push to revive all things nuclear, without any 
memory of the mess that we made before and of the broken 
promises that have not been fulfilled. I have to remind us that 
those who forget the lessons of the past, repeat them and 
repeat them and repeat them. And we have to look very hard at 
the absolute disaster that was created the last time, and the 
failure of the government to live up to its promises to clean 
up the mess that it made.
    Thank you.
    [The prepared statement of Mr. Hirsch follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Boxer. Thank you, Dan.
    You know, just hearing you put into 5 minutes the nightmare 
that the community has experienced, and every time you said, 
and Senator, you came in and said this, it is just over such a 
long period of time. I guess looking ahead to a brighter 
future, if after all the experience you have had of working 
with EPA, with the State, with the DOE, and then we hear today 
that a certain portion of the site DOE is in charge of. The 
rest of the site, we thought EPA was, they said it is the 
State, working with EPA.
    How do you think we should, in fact, when we do have a 
brighter day, reorganize this cleanup in a way that would give 
the community comfort? Shall we put DOE in charge of the whole 
thing? Should we take them out, and put EPA? Should we make the 
State the lead, working with everyone else? What is your sense 
of it?
    Mr. Hirsch. Well, clearly DOE can't be placed in charge of 
it. DOE is the entity that made the problem. DOE is the one 
that was washing its vegetation samples to wash off the 
radioactivity before measuring and filtering the water, to 
filter the radioactivity out before measuring it. So you can't 
trust them, and the community does not trust DOE.
    Our problem at the moment is that we had hoped EPA would in 
fact provide some leadership, but in recent months EPA has been 
sending signals to the State that if, in fact, they ever listed 
this as a Superfund site, they would take away the State's 
authority to clean up the site, the chemicals, and that they 
would not obey the law that the State legislature passed last 
year.
    Senator Boxer. Do you have proof of that?
    Mr. Hirsch. Yes. I will provide that to you, if you would 
like.
    Senator Boxer. So what you are saying is EPA is threatening 
the State not to list this as Superfund, or request it be 
listed?
    Mr. Hirsch. They are telling the State that if the State 
concurs on listing, EPA would likely clean the site up to a 
standard much lower than the State law that was passed, and 
that EPA will not treat the State law as what is called an 
ARAR, an applicable requirement.
    Senator Boxer. Well, if you would send me that, I am going 
to send that to Ms. Bodine, because that is a pattern that we 
are seeing from the other agencies.
    Well, let me just say, we do have a new day coming. I want 
to send a message of hope to the people, because we are not 
only going to pursue this oversight for whether it is Fort 
Meade or Santa Susanna or the Lawrence Livermore Labs, or all 
these problems that we have in these States. We are going to 
pursue that. But we also are hoping and working toward a day 
that the new EPA understands that its mission is to protect the 
people, not to make matters worse, and not to work to the 
lowest common denominator.
    I just want to thank you publicly in this setting, in this 
room, in which our predecessors passed the Clean Water Act, the 
Safe Drinking Water Act, the Clean Air Act, the Endangered 
Species Act, Superfund--all of the landmark laws. As long as I 
am in this chair, and I have colleagues like Senator Cardin and 
many others, we are going to turn this thing around.
    So just tell the folks back there that a new day is coming 
one way or the other, and we are going to not stand by silently 
as people in communities are just ignored.
    You have just been so eloquent. Thank you so much for being 
here.
    Mr. Hirsch. Thank you. You are one of the few little bits 
of hope for this long-suffering community.
    Senator Boxer. Little bits of hope.
    [Laughter.]
    Mr. Hirsch. You have large obstacles, as we do.
    Senator Boxer. Thank you so much.
    Senator, you are in charge. I thank you so much.
    Senator Cardin.
    [Presiding.] Thank you.
    Let me thank Chairman Boxer. She is a great inspiration to 
all of us here, and we have seen over this Congress that she 
has taken the leadership on so many environmental issues that 
are going to be important for our Country and I think for the 
entire world.
    Senator Boxer. Thank you so much.
    Senator Cardin. We thank you very much.
    We have made a lot of progress. We have a lot further to 
do. There is no question about that.
    We will now proceed with this full panel.
    I am first very pleased to welcome to the Committee my 
fellow Marylander, the Secretary of the Environment of the 
Maryland Department of the Environment. Shari Wilson is well 
known to those of us in Maryland for her continued fight for 
our environment. She also serves on the Governor's cabinet, the 
BRAC sub-cabinet, the Chesapeake Bay sub-cabinet, the Smart 
Growth sub-cabinet. She comes from the City Solicitor's Office 
in Baltimore where she was known for fighting for the right 
type of planning for our community.
    We also welcome Bonnie Buthker, the Program Manager, Office 
of Federal Facilities Oversight, Ohio Environmental Protection 
Agency, and Elizabeth Limbrick, who is the Associate Project 
Manager, Langan Engineering and Environmental Services. She 
serves the Greater New York City area as a Projects Manager in 
the environmental services industry.
    We welcome all of you. Your entire statements will be made 
part of the record. We will start with Secretary Wilson.

  STATEMENT OF SHARI T. WILSON, SECRETARY OF THE ENVIRONMENT, 
             MARYLAND DEPARTMENT OF THE ENVIRONMENT

    Ms. Wilson. Thank you, Senator Cardin, and good morning. It 
is a pleasure to be here. We appreciate the opportunity to 
share Maryland's perspective on environmental cleanups at DOD 
sites.
    Maryland enjoys many benefits from our 24 active DOD 
military installations. As you know, we are aggressively and 
enthusiastically preparing for base realignment and closure. We 
also have nine closed DOD facilities and, significantly, 114 
sites previously owned by the Department of Defense, now 
transferred to private parties.
    While we are a small State geographically, we have 
extensive experience in regulating cleanups at Federal 
facilities due to the long and varied history of activities at 
military bases in Maryland.
    At the outset, I must emphasize that over the past decade, 
Maryland has had a very positive and a very successful 
relationship with our DOD facilities. Maryland's experience 
that I will discuss today related to two sites is decidedly not 
characteristic of our overall experience. At these two sites, 
Fort Detrick and Fort Meade, over the past 2 years we have 
encountered resistance. As you have already mentioned today, 
these two sites involve significant ongoing remediation 
requirements.
    At Fort Detrick, there is a portion of the site mentioned 
earlier known as area B where groundwater contamination exists 
in an aquifer that may potentially be used for potable 
purposes. In Maryland, 30 percent of our drinking water comes 
from groundwater. Its protection is our highest priority. This 
area of contamination is also extremely geologically complex. 
The Army's technical cleanup approach did not account for that 
geological complexity and for the potential migration 
adequately. We were not successful over the past 2 years in 
negotiating a more thorough assessment and cleanup, and as a 
result pursued the NPL listing.
    We sensed the Department of Defense was at many levels 
resisting the placement of the site on the NPL. Earlier this 
summer, EPA committed to proceeding with the listing, and in 
fact, as Ms. Bodine mentioned, earlier this month the site was 
formally proposed. We are looking forward to a more thorough 
and protective assessment and cleanup approach as a result.
    At Fort Meade, while there is no immediate health risk at 
the site, there is the potential for an imminent and 
substantial endangerment in the future. This site, as you 
mentioned, is on the NPL and cleanup is ongoing. Significant 
technical work has been completed. There is significant 
technical work yet to be done, and that is our concern. To 
date, there is no Federal facilities agreement at the site, as 
you mentioned, and so there is no legally binding commitment 
for the time line and the cleanup activities.
    In 2007, EPA issued the RCRA administrative order to the 
Army. Compliance with the order remains outstanding. Maryland 
is concerned because there is no binding commitment. Over the 
past several months, we have been in communication with the 
Department of Defense. DOD communicated its commitment to enter 
into the agreement on several occasions, but for reasons that 
are unclear, we were unable to get a commitment to a timeframe, 
when we could see that agreement, when we could expect it, when 
we would know for certain that we had a legally enforceable 
remedy in place. As a result, the department, working with the 
Office of the Attorney General for Maryland, issued a citizen 
suit notice against the facility. Our hope is to secure a 
binding commitment for the cleanup in the future.
    Again, these two sites are not the norm. That being said, 
in conclusion, based on our experience with all of the DOD 
facilities, we would strongly advocate for your consideration 
four improvements to the process of working with DOD. First 
would be a significant increase in priority and funding for 
sites that DOD has transferred to third-party ownership. As I 
mentioned, in Maryland we have 114 of those, and just over 25 
have been addressed, so there is much more work to do.
    We would also recommend careful review of the current 
practice of performance-based contracting to the actual cleanup 
selection phase of the process. We believe it is possible that 
the trend to use of performance-based contracting is resulting 
in inadequate cleanup proposals. We would also suggest 
increased use by the Army of the partnering approach. This is a 
tiered-management approach that has been used quite 
successfully, particularly by the Navy and the Air Force and at 
other facilities in Maryland.
    We also agree, as was mentioned earlier, that a significant 
effort and a time line for this effort to update the DSMOA 
process is in order.
    Thank you very much for the opportunity to discuss our 
experience. We appreciate the opportunity to be here. Thank 
you.
    [The prepared statement of Ms. Wilson follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you very much for your testimony.
    Ms. Buthker.

STATEMENT OF BONNIE BUTHKER, PROGRAM MANAGER, OFFICE OF FEDERAL 
   FACILITIES OVERSIGHT, OHIO ENVIRONMENTAL PROTECTION AGENCY

    Ms. Buthker. Good morning. My name is Bonnie Buthker and I 
am the Department of Defense Program Manager for the Ohio 
Environmental Protection Agency.
    I would like to thank Chairwoman Boxer, Ranking Member 
Inhofe, and all the members of the Committee for the 
opportunity to discuss Ohio's concerns regarding State 
involvement in the investigation and cleanup of Federal 
facilities.
    Though it made significant progress in Ohio in addressing 
contamination at Federal facilities, much more work remains to 
be done. The three major issues I would like to highlight are 
the Army Corps' desire to investigate all potentially 
responsible parties before taking necessary action at formerly 
used defense sites contaminated with military munitions; the 
lack of funding to investigate and remediate known munitions-
contaminate sites; and the problems with the Defense-State 
memorandum-of-agreement program.
    The first major issue concerns the Army Corps' desire to 
investigate all potentially responsible parties before taking 
necessary actions at formerly used defense sites contaminated 
with military munitions, even though the Army Corps 
acknowledges that most of the contamination was caused by past 
military activities. One such example is the former Erie Army 
Depot site. This facility was used by the Army from 1918 until 
1967 for the testing and proof-firing of live and inert rounds. 
Because of the potential hazards associated with the live 
rounds, in 2006 the Army Corps proposed a surface clearance of 
two former land ranges now used by a private club for hunting, 
fishing and tracking. However, they never did this work. Their 
position is that though the ordnance in these areas poses a 
safety hazard, they need to first determine if other parties 
may be liable for the costs to address this contamination.
    The Ohio EPA strongly believes that the Army Corps, in 
conjunction with DOD, should remove these explosive rounds from 
these areas due to the potential safety hazard they pose. 
Subsequently, since the dangerous rounds could only be from 
past DOD activities, DOD should be held liable. Conducting a 
liability investigation will only delay this necessary cleanup.
    The second major issue is the lack of necessary funding to 
investigate and cleanup munitions-contaminated sites. At Erie 
Army Depot, additional investigations are needed to determine 
the extent of ordnance present in Lake Erie and the surrounding 
areas. At the Ravenna Army Ammunition Plant, additional actions 
are needed to remove munitions that were dumped into a ravine 
and are now impacting the stream. In 2007, a white phosphorus 
round exploded in this area, and we are concerned additional 
rounds may explode.
    Both these sites were scored by DOD as a high priority for 
funding for additional work. However, since DOD's priority is 
to first conduct preliminary investigations at all sites before 
funding additional work, there is no funding to conduct 
necessary actions at these two sites.
    Because of sites such as Ravenna and Erie, Ohio EPA urges 
Congress to ensure adequate funding to DOD to address problems 
at priority sites, instead of using funding to only complete 
initial investigations onsites that may be less of a priority.
    The third major issue is the problems with the DSMOA 
program. State involvement is crucial to the success of any 
Federal facility cleanup. Without funding through DSMOA, many 
States, including Ohio, would not be involved with the 
investigation and cleanup of DOD facilities within their State. 
States should be allowed to use DSMOA funding to participate 
with DOD to develop policies on how to address contamination at 
their facilities.
    In addition, DOD should not be allowed to withhold funding 
to punish States when they take necessary actions, including 
enforcement, to protect their citizens. To correct the problems 
with DSMOA, Ohio EPA supports the amendments to 10 U.S.C. 
2701(d) proposed by the Environmental Council of States.
    In conclusion, the effective cleanup of Federal facilities 
is critical to the health and welfare of the citizens living in 
the communities near these sites, as well as to the 
environmental health of these sites. State oversight is a key 
component of this program. Our citizens look to the State to 
ensure that the contamination from past DOD and Department of 
Energy activities is addressed in a protective, expedited 
manner. We ask Congress to remove the barriers to effective 
State oversight and to provide funding to meet critical or 
high-priority needs at these sites.
    Thank you for this opportunity to offer testimony. I would 
be pleased to answer any questions you may have.
    [The prepared statement of Ms. Buthker follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you for your testimony.
    Ms. Limbrick.

  STATEMENT OF ELIZABETH LIMBRICK, ASSOCIATE PROJECT MANAGER, 
         LANGAN ENGINEERING AND ENVIRONMENTAL SERVICES

    Ms. Limbrick. Good morning, Senator Cardin.
    First, I want to start by thanking you for this opportunity 
to testify here today. My name is Elizabeth Limbrick, and I am 
a member of the InterState Technology Regulatory Council. I 
have been employed in the environmental field since 1995 in 
various capacities as a consultant, as a regulator at the New 
Jersey Department of Environmental Protection, and also as a 
responsible party at a quasi-State agency.
    Through these positions, I have recognize that the pace of 
remediations at Federal facilities has actually greatly 
improved over the years and now often far exceeds what was 
common decades ago. The Federal partners have really embraced 
their duty and obligation to get their sites cleaned up. I 
attribute this to the DOE's and the DOD's use of innovative 
technologies and their motivation to bring these sites to a 
conclusion.
    The military has invested in creating comprehensive 
internal environmental programs to address environmental issues 
such as the Air Force's Center for Engineering for the 
Environment and the Naval Facilities Engineering Command, the 
Army Environmental Center, and then of course, the Army Corps 
of Engineers.
    In fact, a partnership has been formed with the United 
States Environmental Protection Agency, the New Jersey 
Department of Environmental Protection, the InterState 
Technology Regulatory Council, the DOD, the DOE, and industry 
that has led to the development of an innovative environmental 
Triad approach. This approach has three main components. They 
are systematic planning, a flexible dynamic work plan, and 
real-time analytical methods. It is this emphasis on the real-
time measurements and the flexible work plan that empowers the 
team to make decisions in the field and to be able to collect 
the necessary data to characterize areas of concern and 
specifically focus their additional samples in areas where 
there may be greater uncertainty or they may be getting some 
unexpected results. Because of that, when you are out in the 
field you may find areas of contamination that could have gone 
unidentified otherwise through the traditional types of 
methods.
    And then the final leg of the Triad approach, the 
systematic planning process, really requires a very high degree 
of cooperation among the stakeholders, and in particular 
between the regulator and the responsible party.
    The result is that when you implement Triad, you get better 
information in a shorter timeframe, and that allows the parties 
to make better decisions, which really that is the ultimate 
goal of Triad. By having this more data, we can really 
characterize the sites better. We can have a better 
understanding of impacts to groundwater, the size and extent of 
contaminant plumes, and the potential for offsite migration. 
And then once we have that information, we can really target 
our remediation activities.
    The DOD and the DOE have recognized and embraced this 
concept and they have successfully applied it at dozens of 
Federal facilities. It has resulted in accelerated cleanups and 
saved millions of taxpayer dollars. I have included some 
examples in my written testimony, but I just want to highlight 
three here.
    The McGuire Air Force Base, which I know has come up 
several times throughout this hearing, at the C-17 hangar 
project, they saved 2 years and $1.3 million; the Vint Hill 
Farm Station, 2 years, $500,000; and at Camp Pendleton, they 
saved 3 years and $2.5 million.
    Because we talked so much about McGuire, I would really 
like to talk about the C-17 hangar project that was done there. 
That project was a rapid turnaround construction project. It 
began when there was solvent contamination that was identified 
during an excavation for the new hangar. They used the Triad 
approach out here, and through that they got 4,500 analytical 
results and between that and having the early involvement of 
the regulators, the Triad team was able to characterize the 
site and conduct their active remediation in just one 
mobilization.
    Between the investigation and the remedial excavation, it 
only took 3 weeks. And the entire Triad process, from the 
initial discovery of the contamination through the 
investigation and the active remediation, and then the 
institution of a natural remediation program, occurred in less 
than 5 months, and that really is a fraction of the typical 
timeframes you are looking at with standard investigations of a 
two-to 3-year timeframe.
    As a result of implementing the Triad approach, the C-17 
hangar project was completed on schedule, and I think this is 
really a good success story.
    I would just like to conclude by saying that the Federal 
partners have shown a commitment to embracing innovative 
technologies for environmental remediations and investigations, 
such as the Triad approach, and by continuing to do this, they 
are going to accelerate the pace of cleanups and increase the 
confidence that sites are fully characterized, while also 
saving taxpayer dollars.
    The DOD, the DOE and the InterState Technology Regulatory 
Council, as well as this Congress, are very serious about 
tackling these environmental issues and protecting human health 
and the environment.
    I would like to thank you for your time, and I look forward 
to your questions.
    [The prepared statement of Ms. Limbrick follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. I thank all of our witnesses.
    I think the point that has been made here by our State 
people is worth repeating. That is, the State of Maryland or 
the State of Ohio or the State of California, the States of New 
Jersey and New York, welcome Federal facilities. We want 
Federal facilities. We think it is important for our Country 
and for our local economy. So Maryland has reached out for 
important Federal installations and bases, and the same thing 
is true in Ohio. There were traditional training missions 
performed at Fort Meade which has its certain importance to our 
Country, but also understandable risks to a community. At Fort 
Detrick, we have some of the most sophisticated labs in the 
world that are there doing work that is extremely important for 
our national security, and the community understands that, and 
welcomes that facility being located in Frederick, Maryland. 
They accept that.
    So we understand the importance to our local economy. We 
understand the importance to our Country. As a result, in our 
State of Maryland we have been very aggressive on encroachment 
issues to make sure not only the facilities can operate today, 
but they can operate tomorrow. We are willing to make our own 
sacrifices at our own expense, put in the infrastructure, off-
base infrastructure, because we know it is important to the 
facility and important to our economy.
    But we expect from the Department of Defense, as what we 
expect from any industry located in our community, and that is 
that they will adhere to the requirements for operating a clean 
environment. If there is damage that has been done, we expect 
remedial action. We have Federal ways to help you and guide you 
as to what needs to be done and accept responsibility.
    But we do not accept, and Ms. Buthker I thought your 
comments about the Department of Defense looking for every 
conceivable responsible party before they start. Well, let me 
tell you something, if you are a private company, you can't do 
that. We know that. And the Department of Defense, particularly 
in Ohio where they are the principal user of that facility, 
trying to delay entering into an effective remedial plan to me 
is avoiding their moral responsibility and legal 
responsibility. We can do a lot better on that.
    Mr. Hirsch, I am very concerned, as the Chairman has 
pointed out, the use of a State law saying that it wouldn't be 
included in a Superfund, to me makes no sense at all. So I 
think we are going to take a look at that and see what we can 
do.
    Secretary Wilson, let me just ask you a couple of 
questions, if I might. And that is, you pointed out the risk at 
Fort Meade, and the EPA pointing out the risk at Fort Meade. 
Can you tell us a little bit more as to why you think the DOD 
has not entered into a timely Federal facilities agreement, and 
what impact that is having on the predictability of the 
remedial work? You point out very clearly that there has been 
patchwork done, but not permanent remedial work, and there 
needs to be a game plan, a time schedule, and yet DOD has 
refused to give us any of the deadlines. What impact does that 
have?
    Ms. Wilson. The impact is two-fold. First, as you have 
mentioned, and there are long-term remediation issues at play 
here. While there is no immediate health risk, we want to have 
confidence that in moving forward the cleanup, the assessment, 
and the ultimate cleanup work itself will be done in a timely 
way. We want the residents of the area, the community, to have 
the same confidence. Without having that binding legal 
commitment, it is very difficult to say, yes, in fact we know 
it is there. So that is why we are taking the legal action that 
we are taking.
    As to why DOD has not entered into this agreement, Senator, 
I cannot answer the question. I have talked to them many times 
over the summer. They say they are committed to doing so. I 
take their representatives at their word, but when we pressed 
for a time line by which that would be done, we couldn't get 
it.
    Senator Cardin. The State of Maryland has done something 
which is kind of unusual, and that is the State issued its RCRA 
citizens suit notice on August 19, 2008. When was the last time 
that the State has been forced to use a citizens suit of this 
kind? And what has been the response that you have noticed as a 
result of this notification?
    Ms. Wilson. This is the first time the State of Maryland 
has used this legal tool. We have not yet received any formal 
response.
    Senator Cardin. Beyond the immediate community at Fort 
Meade and Fort Detrick, is there a concern that the 
contaminants also present challenges for the Chesapeake Bay? As 
you know, the Federal Government has invested a considerable 
amount of resources in its Federal partnership on the 
Chesapeake Bay, including action in this Congress under the 
farm bill and under the water bill. Is there a concern that 
what is happening at these sites may also impact the watershed 
itself leading into the Chesapeake Bay?
    Ms. Wilson. Senator Cardin, that is a very good question. 
Typically, that is the case. We are very fortunate in these two 
sites that there is no direct impact to the Chesapeake Bay. The 
impact is to groundwater. As I mentioned earlier, that is a 
critical resource, particularly in the Fort Detrick area where, 
as you know, in that part of the State our groundwater supply 
is fairly tight. So we need to make sure that we protect every 
future water supply.
    Senator Cardin. I appreciate that.
    Let me just ask Mr. Hirsch or Ms. Limbrick, on the Federal-
State relations, you deal with the private sector. I think you 
raise good points here. Here we see in Maryland a fight that 
has taken place between the State and, by the way, two Federal 
agencies fighting each other. How do we adjust the policy here 
so that we can have a more cooperative effort in working 
between the private sector and the different levels of 
governments so that we achieve the objectives of these laws 
more effectively? Do you have any suggestions, either one of 
you?
    Ms. Limbrick. I would suggest really an increased use of 
something like the Triad approach because that brings together 
the parties involved, all of the stakeholders. I refer mostly 
to bringing together the regulator and the regulated person, 
but it also brings to the table affected community members and 
anyone else who would have a stake in it. So the EPA has really 
been pushing for this Triad approach. I understand that they 
have set goals to have certain numbers of Triad cases brought 
into the department or the agency. I think by continuing to 
proceed down that path and continuing to publicize the 
successes they have had, that you can get this really higher 
level cooperation among the different parties involved.
    Senator Cardin. Mr. Hirsch?
    Mr. Hirsch. If I may respond also, in California for 
example, the Secretary of CalEPA, our State Environmental 
Protection Agency, wrote to the U.S. EPA in January asking to 
be brought into the loop on being able to help with the design 
of this radiation survey for the site and requested other 
assistance. Despite the request from the Secretary of that 
agency, there has been no such involvement permitted to this 
date.
    So frankly, as someone who has observed this for a long 
time, the only solutions here are to have dramatic changes at 
EPA and DOE, and really strong oversight by the Congress, 
because it is not working on the ground.
    Senator Cardin. And I think Chairman Boxer has indicated 
that she is prepared to followup on some of those suggestions.
    Ms. Buthker, in regards to the relationship between your 
agency, the State of Ohio, and the Department of Defense and 
EPA, how would you characterize that relationship in trying to 
get the remedial work at Erie or other facilities that you 
mentioned in Ohio? We heard about what has happened in Maryland 
and other States. Could you just clarify a little bit more? We 
understand the problems you see with the policy positions taken 
by DOE on cleanup, but how if your working relationship in 
trying to get remedial programs moving forward?
    Ms. Buthker. Our working relationship at the installation, 
or on the formerly used defense sites because they are not 
really installations, is very good and working with the people 
that are at the level. The problem is that a lot of the 
policies and procedures in place at DOD, they bind them and 
they can't do creative things and try to come up with solutions 
to the problems that we are facing.
    That has affected probably our working relationship the 
most, is we just can't get to the point where we can use 
something like the Triad approach and sit down and say what 
makes sense to do at this site. You know, we can come up with a 
great solution, but then it goes above the people that we are 
dealing with, and they are like, it is against a policy or 
against--in the case of the FUDS, it is against the FUDS 
regulations to do this, and then we can't do anything.
    Senator Cardin. Well, let me thank all of our witnesses 
from the States and local government. As Chairman Boxer said, 
and as the representatives from the Federal agencies indicated, 
we want to get this right, including DOD wants to get it right. 
I think quite frankly it is just the point that Chairman Boxer 
mentioned is that DOD does its work in defense, not in 
environmental cleanup. EPA provides the guidelines there, and 
DOD doesn't want to spend the money, or won't want to put the 
attention to it, so they look for shortcuts to try to deal with 
an immediate problem, rather than trying to remedy the 
underlying risks. If we were giving grades right now, I think 
we would all would give unacceptable grades to the efforts 
being made to clean up military facilities as aggressively as 
we would expect if it were a private company or if it were a 
different circumstance.
    So I think we need to look at the problems that have been 
raised. I think Chairman Boxer intends to followup on that to 
figure out ways that we can get a better commitment from DOD, 
recognizing the lead role that EPA plays in this in complying 
with remedial programs under Federal laws, and to look for ways 
that have been suggested here to get a better cooperative 
approach using all of the stakeholders, so that we don't have 
these long delays in dealing with the underlying environmental 
risks.
    I found the hearing extremely helpful. We thank you all for 
your participation.
    With that, the committee will stand adjourned.
    [Whereupon, at 12:20 p.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                  [all]
</pre></body></html>
